                                              UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-FM-13-29                                      Office of Audits                                        May 2013




 Audit of Department of State Application of
  the Procurement Fee to Accomplish Key
       Goals of Procurement Services




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                             UNCLASSIFIED
            .                                              United State~ Departm('nt of State




•
     .~

. '~~ ~'.                                                  and the Broar\easlillg Board of Governors

     "..,                                                  Offi(·(, ojInspec/or Gener"l




                                         PREfACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978. as amended. and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit. inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weakncsses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OlG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective.
efficient. and/or economical operations.

     I express my appreciation to all of those who contributcd to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                    UNCLASSIFIED



Acronyms
A Bureau 	   Bureau of Administration
A/LM/AQM 	 Bureau of Administration, Office of Logistics Management, Office of
            Acquisitions Management
A/OPE 	     Bureau of Administration, Office of the Procurement Executive
CO         	contracting officer
COR         	contracting officer’s representative
CSAB 	       Customer Service Advisory Board
DOSAR 	     Department of State Acquisition Regulations
FAC-C 	      Federal Acquisition Certification in Contracting
FAR 	        Federal Acquisition Regulation
FPDS 	       Federal Procurement Data System
GAO 	       Government Accountability Office
GTM 	        government technical monitor
ILMS 	      Integrated Logistics Management System
OIG 	        Office of Inspector General
PSS 	       Procurement Shared Services
QA          Q
            	 uality Assurance
RPSO 	       Regional Procurement Support Office
SLA 	        Service Level Agreement
SOP 	      standard operating procedures
WCF 	        Working Capital Fund




                                    UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................4 


Objective……. .................................................................................................................................9 


Audit Results ..................................................................................................................................9 

       Finding A. Financial Analysis and Reporting Initiative Was Not Accomplished ............10 

       Finding B. Some Customer Service Improvements Were Made, but Additional                                                          

                      Improvements Are Needed To Accomplish Customer Service Goal ............19 

       Finding C. Some Actions Were Taken To Continuously Improve Operations, but 

                     Additional Improvements Are Needed To Accomplish Goal.........................37 

       Finding D. Service Level Agreements Had Been Implemented With Interested 

                     Customers .......................................................................................................49              

       Finding E. Measuring Accomplishment of Business Plan Goals Was Not Performed ....50 


List of Recommendations ..............................................................................................................54 


Appendices
      A. Scope and Methodology................................................................................................56 

      B. Office of Inspector General – Customer Satisfaction Survey .......................................61 

      C. Questions from the 2010 A/LM/AQM Customer Survey .............................................66 

      D. Excerpt of Quality Assurance Plan ...............................................................................68 

      E. Operating Guidance for A/LM/AQM............................................................................72 

      F. Selection of Reports That Identify Procurement Deficiencies at the Department 

         of State...........................................................................................................................75 

      G. Bureau of Administration, Office of Logistics Management Response .......................77 

      H. Bureau of Budget and Planning Response....................................................................82 


Major Contributors to This Report ................................................................................................84 



 




                                                          UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary

        Contractors and grantees play a significant role in supporting the Department of State’s
(Department) operations. The Bureau of Administration (A Bureau), Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM) directs Department acquisition
programs. The contracting officers (CO) within A/LM/AQM are assisted with contract
administration by contracting officer’s representatives (COR) who are provided by the program
offices. Until FY 2008, A/LM/AQM was funded through annual appropriations. However,
because of a significant increase in the number and amount of procurement transactions,
A/LM/AQM became a fee-for-service provider through the Working Capital Fund (WCF).
During FY 2008, A/LM/AQM began charging Department bureaus and offices a 1-percent fee
for assistance with procurement-related activities, including contracts and grants. A/LM/AQM
stated that it would use the fees received to fund operating costs and in return its customers
would receive consistent and improved service. Upon transition to the WCF cost center,
A/LM/AQM developed a Business Plan that included goals and initiatives for its procurement
services.

         The overall objective of this audit was to determine whether A/LM/AQM had applied
procurement fee collections to implement key procurement-activity goals included in its
Business Plan. Specifically, the Office of Inspector General (OIG) assessed the accomplishment
of initiatives included in A/LM/AQM’s procurement services Business Plan for three goals—
performance measurement, customer service, and continuous improvement.

        OIG found that A/LM/AQM had used the procurement fees it collected towards
implementing key procurement-activity goals in its Business Plan. However, A/LM/AQM had
not fully accomplished any of the three goals that OIG assessed during the audit—performance
measurement, customer service, or continuous improvement. For instance, the Financial
Reporting and Analysis initiative related to the performance measurement goal stated that
A/LM/AQM would use funds collected only for procurement-related activities and annually
review the fee structure. OIG found that procurement fees exceeded expenditures by
approximately $59 million over FYs 2008–2011. Although A/LM/AQM had used funds
collected for procurement-related activities, OIG found that at least $26 million in procurement
fees collected were not made available to A/LM/AQM. Instead, funds were used to subsidize
other WCF activities that had operated at a loss. In addition, A/LM/AQM had not formally
reassessed the fee amount since it was initially established. A Bureau officials considered its
periodic review of A/LM/AQM’s revenue and expenditures to be sufficient to ensure the
adequacy of the fee. Also, A/LM/AQM officials stated that changing the fee periodically would
make it difficult for customers to plan and budget. Although not prohibited by law, using the
fees for other purposes did not fulfill A/LM/AQM’s commitment to its customers and took
resources away from acquisition operations. Had the funds been available to A/LM/AQM, it
could have used the funds to achieve some of the procurement-related initiatives included in the
Business Plan that OIG found had not been implemented and to improve contract monitoring
within the Department.




                                            1
                                       UNCLASSIFIED
                                       UNCLASSIFIED


         The initiatives included in the Business Plan for the customer service goal were improved
customer interaction and organizational capacity building. In order to improve customer
interaction, A/LM/AQM had successfully implemented a best practice of locating procurement
staff in some customers’ offices, increased the types of services provided to customers, and
provided customers with the opportunity to participate on a Customer Service Advisory Board
(CSAB). However, A/LM/AQM had discontinued using a formal satisfaction survey to obtain
feedback from customers because officials believed that the response rates to the surveys were
too low and had not developed an alternative formal mechanism for obtaining customer
feedback. In addition, some customers were unaware of certain procurement services because
A/LM/AQM had not sufficiently communicated services provided to its customers. Although
A/LM/AQM had “embedded” procurement staff in the offices of some customers, it did not have
a formal process in place to identify additional customers that would benefit from having
procurement staff located on site.

        In order to improve its organizational capacity building, A/LM/AQM had increased the
size of its workforce since becoming a WCF cost center and was funding some staff in other
bureaus; however, the amount of procurement activity had increased at a higher rate than the
increase in staff. OIG also identified other issues that could improve customer service if
addressed. Specifically, the performance standards for A/LM/AQM employees included only
one limited standard for customer service, employees were not required to receive customer
service training, and generally customers were unaware that a Customer Advocate was available
to assist with customer complaints. As a result, A/LM/AQM had not significantly increased
customer satisfaction since becoming a WCF cost center and had not developed a well-balanced
workforce that met the needs of its customers.

        The initiatives included in the Business Plan for the continuous improvement goal were
related to improved human resources development, internal reviews, and processes and
procedures. A/LM/AQM had implemented several human resources development strategies but
had not developed a formal recruiting plan or succession plan. Some employees expressed
confusion about A/LM/AQM’s intern program, and, to meet its training needs, A/LM/AQM
relied heavily on free courses offered by other agencies that were not always available. In
addition, A/LM/AQM had performed certain internal reviews; however, A/LM/AQM could
expand these reviews and assess acquisition processes, procedures, and performance, which
could improve the effectiveness and efficiency of its operations. In addition, A/LM/AQM had
mapped core procurement processes for three programs and had some operational guidance
available on its Intranet Web site. However, A/LM/AQM had not developed comprehensive
standard operating procedures (SOP) for many general procurement activities. Without specific
procedures for procurement activities, inconsistencies in how procurement activities are
performed will occur, and work may not be performed efficiently.

       A/LM/AQM had addressed an initiative related to the performance measurement goal to
develop service level agreements (SLA) with its customers. A/LM/AQM had provided
customers the opportunity to negotiate SLAs, and three customers had worked with A/LM/AQM
to develop SLAs. According to A/LM/AQM officials, other customers were not interested in
implementing SLAs.



                                            2
                                       UNCLASSIFIED
                                        UNCLASSIFIED


        A/LM/AQM did not have a mechanism in place to track accomplishment of the
procurement goals included in its Business Plan. A/LM/AQM officials considered the A
Bureau’s efforts to track the accomplishment of its strategic goals to be sufficient. However,
most of the procurement-related goals were not included in the A Bureau’s Strategic Plan.
Without measuring its performance, A/LM/AQM cannot ensure it is making progress on its
overall objective of providing consistent and improved procurement services.

Management Comments

         In April 2013, OIG provided a draft of this report to the A Bureau and the Bureau of
Budget and Planning. The report’s 19 recommendations were addressed to the A Bureau, with
the first recommendation to be coordinated with the Bureau of Budget and Planning, and were
related to accomplishing the Department’s procurement-related goals as well as identifying other
opportunities to improve customer service. Specifically, the draft report included OIG
recommendations related to financial analysis and reporting, customer service, human resources
development, internal reviews, business processes, and tracking the accomplishment of goals.

        In its May 6, 2013, response (see Appendix G) to the draft report, the A Bureau agreed to
18 of 19 recommendations. For example, the A Bureau agreed to develop a plan to use the
A/LM/AQM portion of the carryover funding, ensure the procurement fee amount is sufficient
and supportable, develop a more robust staffing plan, and work with the Bureau of Human
Resources to track attrition rates. Also, the A Bureau agreed to include information regarding its
intern program in the A/LM/AQM employee Welcome Package, provide guidelines on the types
of training that are available to the contracting professionals, and report accomplishments related
to its Business Plan goals. Lastly, A/LM/AQM planned to provide customer service training to
its employees.

        Although the A Bureau agreed with a recommendation to identify and map significant
procurement processes and develop standard operating procedures, it stated that its existing
Quality Assurance (QA) Plan maps the Federal procurement process by contract type and allows
A/LM/AQM “to be flexible and nimble when responding to urgent requests.” Although the QA
Plan is an important tool for A/LM/AQM to use during the contracting process, it does not
provide the detailed procedures for processing contracting actions that would be included in
standard operating procedures. The A Bureau disagreed with a recommendation to create a
separate point limitation for the Procurement Shared Services (PSS) service center because it
already had an allotment code that allowed the tracking of financial data. In its April 24, 2013,
response (see Appendix H) to Recommendation 1 in the draft report, the Bureau of Budget and
Planning also disagreed with the recommendation to create a separate point limitation, citing the
same issues raised by the A Bureau.

       OIG considers Recommendations 2–17 and 19 resolved, pending further action, and
Recommendations 1 and 18 unresolved. The bureaus’ responses to the recommendations and
OIG’s replies are presented after each recommendation.




                                             3
                                        UNCLASSIFIED
                                               UNCLASSIFIED


                                                 Background
         Contractors play a substantial role in supporting the Department’s operations, missions,
and programs. For instance, the Bureau of International Narcotics and Law Enforcement Affairs
uses contractors for international anti-narcotics and police training programs, the Bureau of
Overseas Buildings Operations uses contractors for overseas construction programs, and the
Bureau of Diplomatic Security uses contractors for overseas and domestic guard programs. The
Department also achieves its strategic goals by providing financial assistance, through grants,
cooperative agreements, and voluntary contributions, to other nations, non-profit organizations,
institutions of higher learning, or commercial organizations. According to USASpending.gov,
the Department expended more than $10.7 billion, consisting of more than 79,000 transactions,
for contract and grants transactions in FY 2011.

Procurement Responsibilities

         A/LM/AQM manages, plans, and directs Department acquisition programs so that the
Department can acquire goods and services, such as the design and construction of overseas
facilities, residential and office furniture, and security services and equipment. A/LM/AQM
provides professional contract management services to Department bureaus and offices1 and
overseas posts, as well as other Federal agencies, including acquisition planning, contract
negotiations, and cost and price analysis. In addition to procurements, A/LM/AQM also
processes grants and assistance agreements for some bureaus and overseas posts.2

       A/LM/AQM has five divisions that perform procurement activities for different bureaus
and functions. Specifically, the five divisions are responsible for

            Facilities, Design, and Construction – Logistics and construction requirements.
            Worldwide Operations – Acquisition agreements for functional bureaus.
            International Programs – All grants in support of program offices that do not have
             grants officers, including both domestic and overseas posts, and some contracts that
             support program requirements.
            Information Technology Commerce Division – Assisting overseas posts by
             purchasing goods and services from vendors in the United States, such as residential
             furniture.
            Business Operations – Operational activities within A/LM/AQM, such as assisting
             customer service teams and administering procurement systems.




1
  Some other bureaus and offices, for example the Foreign Service Institute, Office of Foreign Missions, and U.S.
Mission to the United Nations, have been designated as separate contracting activities. Other bureaus or offices, for
instance the Bureau of International Narcotics and Law Enforcement Affairs, the Office of Language Services, and
the Library, have been delegated limited procurement authority, such as simplified acquisition transactions against
existing contracts.
2
  According to an A Bureau official, many offices, such as the Bureaus of Educational and Cultural Affairs and
Population, Refugees and Migration award their own grants.


                                                    4
                                               UNCLASSIFIED
                                       UNCLASSIFIED


In addition to the domestic divisions, A/LM/AQM has two Regional Procurement Support
Offices (RPSO)—one in Frankfurt, Germany, and one in Ft. Lauderdale, Florida—that assist
overseas posts with procurement activities.

        The A Bureau’s Office of the Procurement Executive (A/OPE) establishes the
Department’s acquisition and assistance policies. In addition to the Federal Acquisition
Regulation (FAR), which is used by all Federal executive agencies, the Department’s acquisition
policies include the Department of State Acquisition Regulations (DOSAR), Procurement
Information Bulletins issued by A/OPE, and the Contracting Officer’s Representative Handbook.
In addition, A/OPE develops and maintains a procurement career management program,
including approving training curricula, to ensure an adequate professional work force.

        A/OPE is also responsible for appointing contracting officers (CO). COs are the
Government’s authorized agents for dealing with contractors and have sole authority to solicit
proposals and to award, modify, and terminate contracts. The administration of a contract, which
includes monitoring the contractor’s technical progress and performance, is ultimately the
responsibility of the CO. The CO performs duties at the request of the requirements office and
relies on the requirements office for technical advice concerning the supplies or services being
acquired. The contracting officer’s representative (COR), who is provided by the program
office, plays an important role in contract administration as well. The COR assists the CO in the
administration of contracts and is generally authorized to approve technical data, provide
direction to the contractor on technical matters, and approve invoices.

Creation of the Procurement Shared Services Cost Center

        Until FY 2008, A/LM/AQM was funded through annual appropriations. Between FY
2001 and FY 2006, A/LM/AQM saw a 41-percent increase in the number of procurement
transactions processed and a 155-percent increase in the dollar value of procurement actions.
Specifically, during this period, procurement volume increased from $1.9 billion to $4.9 billion.
The Department’s business case for becoming part of the WCF noted the increase in major
construction projects and the demand for contingency contracting as well as contracts in
Afghanistan and Iraq, such as security service contracts, worldwide security training contracts,
and developmental contracts, as contributing factors for increased procurement activity. Chart 1
details the dollar amount increase in procurement for FYs 2001–2011.




                                            5
                                       UNCLASSIFIED
                                                 UNCLASSIFIED




                      Chart 1: A/LM/AQM Procurement Amounts -
                               FYs 2001-2011 (in billions)
          9
          8
          7
          6
          5
          4
          3
          2
          1
          0
               2001     2002     2003     2004     2005     2006     2007     2008     2009     2010     2011
        Source: Presentation prepared by the A Bureau entitled “Acquisition Report – Usage of Fee-For-Service,” Feb. 2011.


        In its business case for becoming a service provider, A/LM/AQM reported that it had
handled the increased workload, but it did not believe that the trend would be sustainable using
the current funding mechanism, that is appropriated funds. In addition, at that time, the
administrative expense of procurement activity was distributed unevenly because the RPSOs
charged a fee while A/LM/AQM did not charge a fee. The solution developed by the
Department was to move to a fee-for-service program, within the Department’s WCF, that would
allow A/LM/AQM to respond to surges in procurement activity, focus on planning and
oversight, offer enhanced customer support, and better assist overseas posts. The A Bureau
noted that the role of Federal acquisitions was on the rise, and the Department needed to be able
to meet expanding program initiatives and increasing reporting requirements. The A Bureau
found that shared services models were widely used in the private sector to deliver administrative
services. In addition, other Federal agencies charged fees for procurement-related activities.

        On February 22, 2008, the Department converted its principal acquisitions office,
A/LM/AQM, to a WCF shared services provider.3 The A Bureau created the PSS service center
within the WCF, which was authorized by the Foreign Assistance Act of 1963 (Public Law
88-205), as an amendment to the Department’s Basic Authorities Act. A WCF is a revolving
fund authorized by law to finance operations where the costs of goods or services provided are
charged back to the recipient. The funds received are available to continue operations and for
future investments.

        The WCF serves bureaus and offices within the Department and U.S. Government
agencies operating abroad. The WCF is managed by the A Bureau’s Office of the Executive
Director. As of FY 2012, the WCF consisted of 29 cost centers. Generally, the A Bureau’s cost
centers are grouped by type of service into service centers, which are formed to market services

3
 Effective October 1, 2008, the two RPSOs instituted a revised fee structure that matched the fees charged by
A/LM/AQM.

                                                      6
                                                 UNCLASSIFIED
                                            UNCLASSIFIED


and interact with customers in a uniform way. The service centers within the A Bureau WCF
include the following:

           Global Publishing Solutions.
           Freight Forwarding.
           Information Technology Services.
           Operations.
           PSS.
           Library Services.
           Aviation.

The PSS service center within the WCF currently includes four cost centers:

           Acquisitions Management (A/LM/AQM).
           RPSO Florida.
           RPSO Frankfurt.
           Overseas Procurement.

        The Acquisitions Management cost center is involved in or carries out most of the
Department’s procurements. The RPSOs in Florida and Frankfurt provide regional support by
assisting posts with procurement of supplies and materials. The Overseas Procurement cost
center facilitates post procurement for other government agencies. As part of the WCF, the cost
centers within the PSS service center charge users a fee for the services provided. Table 1
provides information on some fees charged to customers.

       Table 1. Examples of Procurement Fee Rates by Acquisition Type
                                             Fee for              Fee for
                Acquisition Type           Department        Non-Department
        General Acquisitions                                 1%                      4%
        Grants                                               1%                      4%
        Local Guard Program                                  1%                      1%
       Source: OIG prepared using information from the A Bureau Intranet Web site obtained Jan. 7, 2013,
       http://a.m.state.sbu/sites/ex/WCF/Pages/ProcurementServices.aspx.

       The fees charged by the PSS service center are based on the final negotiated price for
most procurement and grant actions. For instance, a grant of $500,000 processed by
A/LM/AQM would result in a fee to the responsible bureau of $5,000. The PSS service center
has no minimum amount, and A/LM/AQM charges a fee for each transaction that increases
procurement funding.4 There is also no maximum amount, or cap, for the fee. The fee is
charged regardless of the amount of the contract. A/LM/AQM does not charge a fee for
deobligations, replacement contracts, or no-cost modifications.

4
 A/LM/AQM officials informed OIG that the National Endowment for Democracy grant is the only procurement
action exempt from fees.

                                                 7
                                            UNCLASSIFIED
                                              UNCLASSIFIED



Procurement Services Vision and Business Plan

        A/LM/AQM stated that it would use the fees it collected for operating costs, such as
staffing. In return for paying a fee, A/LM/AQM indicated that customers would receive
consistent and improved service, including increased attention to customer needs and contract
oversight. The PSS service center was based on the pillars of flexibility, customer service,
transparency, and performance management, which would provide the strategic framework to
confront the acquisition challenges of the future through

        	 Financial alignment of procurement requirements to programmatic strategic goals.
        	 Creation of a high-quality, transparent, and customer-focused procurement operation.
        	 Flexibility to move resources to ensure the accomplishment of the Department’s top
           priorities.

        When it transitioned to a WCF cost center, A/LM/AQM developed a Business Plan.5 In
the plan, A/LM/AQM stated that its vision was to build a “global procurement operation” that
would provide “flexible, cost effective, and timely procurement solutions” for the Department,
both domestically and overseas. The Business Plan included short-term priorities and long-term
outcomes focusing on four key goals:

    1.	 Performance Measurement – A/LM/AQM planned to develop performance standards and
        other information that would be “meaningful to customers, stakeholders, and
        A/LM/AQM management” in order to “improve the quality of acquisition and grant
        services.” Specifically, A/LM/AQM planned to implement SLAs with its customers that
        outline mutually agreed-upon metrics and standards and to perform certain analyses of
        financial data.

    2.	 Customer Service – A/LM/AQM planned to expand its contracting, analytical, and
        administrative capacity. According to the Business Plan, improved productivity,
        accountability, and responsiveness would result in more efficient service. Specifically,
        the Business Plan indicated that A/LM/AQM would focus on both internal and external
        staffing and customer interaction.

    3.	 Continuous Improvement – A/LM/AQM planned to continually “improve its operations
        through human capital investments and its business processes.” A/LM/AQM indicated it
        would develop programs to attract, hire, and retain a qualified acquisition staff.
        A/LM/AQM also planned to develop standards and to map its business process to
        identify opportunities for improvements. Lastly, A/LM/AQM outlined the internal
        reviews it would perform.




5
  “Procurement Services: A Working Capital Fund (A/LM/AQM), Business Plan – FY 2008 Through FY 2010,”
issued Dec. 2008. The A Bureau had not updated the PSS Business Plan, so OIG considers it to be still in effect.

                                                   8
                                              UNCLASSIFIED
                                             UNCLASSIFIED


    4.	 Innovative Management6 – A/LM/AQM planned to “attain economies of scale and
        improve contract administration through more efficient processes.” Specifically,
        A/LM/AQM planned to strategically source certain products to obtain lower prices
        through bulk purchasing. A/LM/AQM also planned to establish a new business process
        for the Local Guard Program contracts.

                                                 Objective
         The overall objective of this audit was to determine whether A/LM/AQM had applied
procurement fee collections to implement key procurement-activity goals—performance
measurement, customer service, and continuous improvement—included in A/LM/AQM’s
Business Plan. For each of these goals, OIG assessed whether A/LM/AQM had accomplished
initiatives included in the Business Plan. Specifically, OIG determined to what extent
A/LM/AQM had

        	 Improved financial analysis and reporting.

        	 Improved customer interaction and its organizational capacity.

        	 Improved human resources development, implemented internal reviews, and
           improved processes and procedures.

        	 Implemented SLAs.

                                              Audit Results
         OIG found that A/LM/AQM had used the procurement fees it collected as part of the
WCF towards implementing key procurement-activity goals in its Business Plan. However,
A/LM/AQM had not accomplished its performance measurement, customer service, or
continuous improvement goals. Although A/LM/AQM had taken action to implement a number
of initiatives included in the Business Plan, OIG found that A/LM/AQM had not sufficiently
addressed the Financial Analysis and Reporting initiative related to the performance
measurement goal; the Customer and Stakeholder Interaction and Organizational Capacity
Building initiatives related to the customer service goal; and the Human Resources
Development, Internal Reviews, and Business Process Mapping and Procedures Standardization
initiatives related to the continuous improvement goal. However, A/LM/AQM had sufficiently
addressed the Implementing Service Level Agreements initiative related to the performance
measurement goal. Overall, A/LM/AQM did not have a process in place to track the
accomplishment of the goals in the Business Plan.




6
 OIG did not assess the status of this goal during the audit. See Appendix A: Scope and Methodology for
additional information.


                                                  9
                                             UNCLASSIFIED
                                        UNCLASSIFIED




Finding A. Financial Analysis and Reporting Initiative Was Not
Accomplished
        A/LM/AQM’s Business Plan included a goal to improve performance measurement. One
of the initiatives identified to accomplish this goal was Financial Analysis and Reporting. OIG
found that A/LM/AQM had not accomplished the Financial Analysis and Reporting initiative.
According to the Business Plan, WCF activities “must be fully supported by generated revenues.
The correct balance of fees and expenditures is essential to build and maintain a worldwide high
performing acquisition activity.” The Business Plan stated that A/LM/AQM would only use the
fees collected for procurement-related activities and would annually review the fee structure.
Although the procurement-related funds provided to A/LM/AQM had been used for
procurement-related purposes, OIG concluded that at least $26 million of procurement-related
fees were used to subsidize other WCF service or cost centers within the A Bureau that operated
at a loss. Although not prohibited by law, using the procurement-related funds for other
purposes did not comply with the Business Plan. In addition, by not having the funds to use,
A/LM/AQM missed opportunities to improve procurement-related activities within the
Department, such as improving contract monitoring.

         In addition, A/LM/AQM had not reassessed the amount of the procurement fee since it
initially established the fee because, according to an A/LM/AQM official, changing the fee
periodically would make it difficult for customers to budget for the cost of the fee. A Bureau
officials considered the periodic review of A/LM/AQM’s revenue and expenditures to be
sufficient to ensure the adequacy of the fee. Based on the fact that revenues had exceeded
expenses by approximately $59 million over 4 years, it appears that the procurement fee may
need adjustment. However, because A/LM/AQM had not sufficiently considered future needs,
for instance the need to improve contract monitoring, or the available carryover, it was difficult
to determine whether the fee was reasonable.

Procurement Funds Used for Non-Acquisition Related Activities

        One of the factors included in the Business Plan to accomplish the Financial Analysis and
Reporting initiative was that A/LM/AQM would only use the fees it collected for
procurement-related activities. OIG found that the types of expenditures made by A/LM/AQM
using the procurement-related funds collected were related to procurement activities. However,
not all procurement-related funds were returned to A/LM/AQM at the beginning of each fiscal
year to use for procurement purposes. Instead, some funds were being used to support other,
unprofitable WCF service or cost centers within the A Bureau that did not have procurement
responsibilities. Although using the procurement-related funds for non-acquisition purposes is
not prohibited by law, it breached the A Bureau’s commitment to its customers to only use the
fee revenue for procurement-related activities. In addition, A/LM/AQM could have used the
fees to address procurement-related deficiencies, such as improving contract monitoring within
the Department.




                                             10
                                        UNCLASSIFIED
                                              UNCLASSIFIED




        Fees Were Used for Procurement Activities but Some Funds Were Not Available to
        A/LM/AQM

        The Business Plan stated that “procurement revenue collected can only be used for”
A/LM/AQM activities. To determine whether the fees collected were used for
procurement-related activities, OIG obtained and analyzed A Bureau financial reports. OIG
found that, during FYs 2008–2011, A/LM/AQM used the fees collected for numerous types of
items related to procurement activities. For instance, as noted in Finding B: Organizational
Capacity Building Initiative Not Sufficiently Implemented, A/LM/AQM had been using funds to
increase the size of its procurement workforce. As shown in Figure 1, the largest amount of
expenditures during FY 2011 was for personnel-related costs and other services, which included
contract personnel and system operations.


            Figure 1: FY 2011 A/LM/AQM Expenditures
                           by Category
                               $891,616                                     Personnel Costs - $19,609,219


                                                                            Travel and Transportation -
                                                                            $1,280,109

                                          $19,609,219                       Rents, Communications, and
                                                                            Utilities - $2,543,418
                                                                            Printing and Reproduction -
                   $40,113,829                                              $148,282
                                                        $1,280,109
                                                                            Other Services - $40,113,829
                                                    $2,543,418
                                                       $148,282             Supplies and Equipment -
                                                                            $891,616

Source: OIG prepared using expenditure data provided by an A Bureau official.  

        However, not all of the fees collected for procurement activities were used by
A/LM/AQM. Some of the funds were used for other purposes. Based on an analysis of revenue
and spending recorded in the Global Financial Management System,7 OIG found that the PSS
service center earned revenues in excess of spending for each fiscal year from 2008 through
2011. The total amount of excess revenue collected for FYs 2008–2011 was $59,298,295, as
shown in Table 2.




7
 A/LM/AQM financial reports combined domestic and overseas revenue; therefore, for purposes of the cash flow
analysis, OIG assessed the revenues and spending for both domestic and overseas procurement, including RPSO
expenditures.

                                                   11
                                              UNCLASSIFIED
                                               UNCLASSIFIED



Table 2. Cash Flow Analysis of PSS Service Center – FYs 2008 – 2011
      Category           FY 2008             FY 2009             FY 2010            FY 2011               Total
    Revenue*              $87,667,768          $73,654,600       $95,083,097          $83,868,257       $340,273,722
    Spending**              70,936,315          66,362,902        67,149,615           76,526,595        280,975,427
 Funds Available           $16,731,453            $7,291,698      $27,933,482         $7,341,662         $59,298,295
Source: OIG prepared using data from the Global Financial Management System.
*For revenue, OIG used reimbursement information. According to the Government Accountability Office (GAO), a
reimbursement is funds received as payment for “services furnished either to the public or to another government
account.”
**The amount spent includes unliquidated obligations and expenditures. GAO defines an obligation as a
commitment that “creates a legal liability of the government for the payment of goods and services ordered or
received” and an unliquidated obligation as the “amount of outstanding obligations.” In addition, GAO defines an
expenditure as the “actual spending of money.”

       The A Bureau consolidated funds for the WCF service centers for which it was
responsible, including PSS,8 therefore it was difficult for OIG to determine the amount of
carryover funding provided to A/LM/AQM. Although OIG found that the amount of
procurement-related fees collected was greater than the expenditures of the service center,
Department officials stated that the A Bureau had received no WCF-related carryover funds for
FYs 2008–2010 and had received a carryover of approximately $33.0 million for FY 2011,
which included all of the A Bureau’s service and cost centers. An A Bureau official stated that
during FY 2012, the carryover amount for the A Bureau’s WCF cost centers had increased to
approximately $69 million.

          Fees Used To Subsidize Other Working Capital Fund Activities

        An A Bureau official indicated that excess PSS funds had been used to subsidize other
service or cost centers within the A Bureau that performed at a loss. Several cost centers
experienced short falls during FYs 2008–2011. For example, according to an A Bureau financial
report, for FYs 2008–2011, the Global Publishing Solutions service center’s expenses exceeded
revenue by more than $15 million,9 and the Secure Warehouses cost center’s expenses for FYs
2008–2011 exceeded revenue by more than $7 million.

        An A Bureau official stated that by consolidating revenues and expenses related to the
A Bureau’s service centers, the profits and losses of each service center were offset. That is, if
some cost centers did not collect sufficient revenues to cover expenses, those losses were offset
with excess funds from other cost centers. The Bureau of Budget and Planning calculates the
carry-forward balances at the consolidated level as well, rather than at the individual service
center level. An A Bureau official stated that the WCF funds needed to be balanced overall at

8
  A Bureau consolidated its service centers for accounting purposes under the .0 point limitation. A point limitation
is a decimal suffix added to the appropriation account symbol.
9
  An OIG report, Inspection of the Bureau of Administration, Global Information Services, Global Publishing
Solutions (ISP-I-12-07, Jan. 2012), identified concerns with the GPS fee-setting process. Specifically, the report
stated that GPS had not “generated sufficient revenue to cover its printing operation costs” and had “charged
unrealistically low printing prices,” meaning GPS had operated at a loss.

                                                    12
                                               UNCLASSIFIED
                                            UNCLASSIFIED


the end of the year. However, according to the Government Accountability Office (GAO),10
allowing subsidization between cost centers allows the inefficiencies of individual programs to
remain undetected.

        The United States Code, 22 U.S.C. 2684, which authorizes the Department’s WCF, does
not specifically prohibit the Department from using amounts collected for one WCF service or
cost center to cover expenses for another service or cost center. The GAO report also stated that
“under a revolving fund structure, the agencies are not required to ensure that each program
covers its costs but that the fund as a whole remains solvent.”

        Missed Opportunities To Improve Procurement Activities

        Although using the funds collected from the procurement fee for non-acquisition
purposes did not violate the law, it breached a commitment made by the A Bureau to its
customers to use the fees collected only for procurement activities. Subsidizing other
unprofitable A Bureau cost centers took resources away from acquisition operations. In addition,
this subsidy allowed unprofitable cost centers to continue to operate at a loss for many years
without these cost centers’ fee-setting deficiencies being addressed by Department
management.11

       A/LM/AQM needs to implement a plan for how it will use its portion of the available
WCF carryover. As discussed in this report, A/LM/AQM had not achieved some of the
procurement-related initiatives included in its Business Plan. Rather than spending excess funds
on other activities, or allowing the funds to remain unused in a carryover account, A/LM/AQM
could have used the funds to fully implement all of its Business Plan goals.

        A/LM/AQM could have also used the excess funds to improve contract monitoring
within the Department. In 2012, the Department reported to Congress12 that contract oversight
was a “driving force” behind the decision to transition A/LM/AQM to the WCF. The
Department also stated that it had significantly improved the efficiency and effectiveness of
contract oversight since A/LM/AQM had become a cost center. However, recent reports from
OIG, GAO, and the Commission on Wartime Contracting in Iraq and Afghanistan have
identified deficiencies in the Department’s contract oversight. (Appendix F includes a list of
these reports.) Specifically, OIG issued 17 reports between January 2009 and August 2012 that
included findings related to the lack of or inconsistent performance in monitoring procurements.
For instance, contracting and grant officers or their representatives were not performing site
visits and were not obtaining or reviewing contractor or grantee progress. In addition, OIG
identified approximately $140 million in questioned or unallowed costs as a direct result of poor
procurement oversight during this period. Based on the results of its work, OIG included
contract and procurement management as one of the most serious challenges for the Department

10
   Interagency Contracting: Improvements Needed in Setting Fee Rates for Selected Programs (GAO-11-784, Sept. 

2011). 

11
   OIG began an audit of two additional WCF cost centers in December 2012—Secure Warehouses and Information 

Technology.

12
   Evaluation of the Efficiencies and Improvements Gained, Congressional Report, FY 2012, Working Capital Fund
(Acquisitions Management), Apr. 2, 2012.

                                                 13
                                            UNCLASSIFIED
                                            UNCLASSIFIED


in the Inspector General’s Assessment of Management and Performance Challenges section of
the Department’s FY 2012 Agency Financial Report.

        GAO issued three reports between April 2010 and August 2012 that cited concerns with
contract and grant administration and monitoring by the Department. For example, in a report
issued in April 2010, GAO found that the Department had not fully documented monitoring
procedures for assistance projects in Pakistan. In a report issued August 2012, GAO found that
the Department did not have the sufficient number of qualified personnel to oversee contracts in
Iraq and Afghanistan.

        A July 2010 special report by the Commission on Wartime Contracting in Iraq and
Afghanistan also raised concerns about the Department’s ability to manage and oversee contracts
in Iraq after the departure of the U.S. military. Specifically, the Department had to request the
use of a Department of Defense contract for support services, noting that it did “not have within
its Foreign Service cadre sufficient experience and expertise to perform necessary contract
oversight.” In addition, during a June 2010 Commission hearing, a Department official testified
that the Department would need to more than double the number of private security contractors
to provide security protection in Iraq. The Commission stated that “[w]ith such a large increase
in contract employees, existing weaknesses in contract management and oversight, not to
mention funding and hiring challenges, can only grow more troublesome…. The already
daunting tasks of contract management will grow more daunting as new security, policy and
political challenges emerge from the transition.”

        Based on the significant issues that continue to be identified by independent
organizations, OIG concluded that A/LM/AQM had not sufficiently improved the efficiency and
effectiveness of contract monitoring since becoming a cost center. If additional funds had been
made available to A/LM/AQM, it could have used funds to address some of the deficiencies in
monitoring contracts and grants. Currently, A/LM/AQM’s COs rely on CORs provided by
program offices to approve technical data, provide direction to the contractor on technical
matters, and approve invoices. Although it would not be possible or reasonable for A/LM/AQM
to fund all CORs within the Department, A/LM/AQM could have used the excess funds to
develop and implement an initiative to identify high-risk contracts and hire qualified CORs to
monitor those high-risk procurements. These designated full-time CORs could monitor
contractor’s performance to ensure that costs, product performance, and delivery schedules are in
compliance with the terms and conditions of the contract.

        The Department could also reassess the fee amount charged for the PSS service center in
light of the carryover amounts available. GAO indicated that managing reserve balances is one
of the elements of the fee-setting process.13 (See Finding A: Procurement Fee Had Not Been
Reassessed for additional information.)

        Recommendation 1. OIG recommends that the Bureau of Administration, in
        coordination with the Bureau of Budget and Planning, create a separate point limitation
        within the Working Capital Fund for the Procurement Shared Services service center.

13
  Interagency Contracting: Improvements Needed in Setting Fee Rates for Selected Programs (GAO-11-784, Sept.
2011).

                                                 14
                                            UNCLASSIFIED
                                       UNCLASSIFIED


       A Bureau and Bureau of Budget and Planning Responses: Both the A Bureau and BP
       disagreed with this recommendation, stating that A/LM/AQM had “its own unique
       allotment code” that would allow the A Bureau to “track all revenue, obligations,
       liquidations, and carry forward” amounts. The Bureaus’ responses also highlighted
       information included in the report, such as the fact that the U.S. Code does not
       specifically prohibit the use of funds from one cost center for costs incurred by another
       cost center.

       OIG Reply: OIG considers this recommendation unresolved. While the practice of
       using funds collected by the PSS service center to subsidize other cost centers that
       consistently operate at a deficit may not violate the law, it is not an effective way to
       manage the WCF. The intent of this recommendation was to ensure that funds collected
       by the PSS service center were used for acquisition-related needs, which are a
       high-priority within the Department. This recommendation can be resolved when OIG
       reviews and accepts documentation showing that the Department has proposed an
       alternative methodology that fulfills the intent of the recommendation.

       Recommendation 2. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop and implement a
       plan for how it will use its portion of the available Working Capital Fund carryover to
       either implement its Business Plan goals or to improve the efficiency and effectiveness of
       contract monitoring.

       A Bureau Response: The A Bureau agreed with this recommendation, stating that it
       would “develop a plan” on how to use the available carryover “to support
       acquisition-related activities.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/LM/AQM has
       developed and implemented a plan to use its portion of the available WCF carryover.

Procurement Fee Had Not Been Reassessed

        To ensure the correct balance of fees and expenditures, the Financial Analysis and
Reporting initiative also included a requirement to annually review the fee structure. OIG found
that the methodology A/LM/AQM used to calculate the initial fee amount did not consider all
necessary factors. Specifically, A/LM/AQM used expense estimates that were higher than actual
expenses, and other relevant expenses were not included in the calculation. In addition,
A/LM/AQM had not reassessed the fee amount since it initially established the fee because,
according to A/LM/AQM officials, changing the fee periodically would make it difficult for
customers to plan and budget. Officials believed that the PSS service center should have time to
“mature” so better data was available for fee calculations. Fees that are not regularly reviewed
and adjusted run the risk of undercharging or overcharging users, and as described in Finding A:
Procurement Funds Used for Non-Acquisition Related Activities, excess funds were used for
non-procurement activities.



                                            15
                                       UNCLASSIFIED
                                                 UNCLASSIFIED

        In its Business Plan, A/LM/AQM indicated that it would ensure the “correct balance of
fees and expenditures” that is “essential to build and maintain a worldwide high performing
acquisition activity.” As part of this initiative, the Business Plan indicated that the fee structure
would be reviewed annually. In addition, the Foreign Affairs Handbook14 requires that WCF
charges be “reviewed annually.”

        A/LM/AQM’s initial methodology for calculating the PSS fee amount did not consider
all necessary factors. A group of A/LM/AQM officials established the fee. As part of the fee
assessment process, the group estimated that the amount of procurement activity for FY 2008
would be $6 billion. The group also estimated approximately $51 million of procurement-related
expenses, in 15 different categories, such as staffing costs, office supplies, and travel. The A
Bureau calculated a 0.85 percent fee amount by dividing the total estimated expenses by the
estimated amount of procurement activity. Department officials rounded the 0.85 percent to 1
percent. According to an A/LM/AQM official, the decision to round the amount of the fee to 1
percent was made in anticipation of future increases in expenses. However, A/LM/AQM was
unable to provide documentation supporting this decision.

        A/LM/AQM was unable to provide supporting documentation for the amount of
estimated procurement activity. OIG reviewed the estimated operating expenses for FY 2008
from the A Bureau’s “Procurement Shared Services FY 2008 Spending Plan.” The A Bureau
was unable to provide supporting documentation for 10 of 15 expenses included in the
fee-setting calculation. OIG found that FY 2008 expense estimates were significantly higher
than actual expenditures for some categories in FY 2008. As shown in Table 3, even during
FY 2011, A/LM/AQM’s expenditures for these categories were significantly lower than the
estimate included in the spending plan.

Table 3. Categories Where Actual FY 2008 and FY 2011 Expenditures Exceeded Estimate
                                                Actual                    Actual
                                               Amount                    Amount
                     FY 2008      FY 2008                   FY 2011
   Category                                  Compared to               Compared to
                  Spending Plan    Actual                    Actual
                                              Spending                   Spending
                                                 Plan                      Plan

 Travel                        $4,000,000          $552,760                  14%       $1,368,780                     34%
 Office Space
 Renovations/                  $7,510,000                 $0                   0%                $0                   0%
 Additional Space
 Training                        $320,000           $62,045                  19%         $126,047                     39%
Source: OIG analysis of information from reports provided by the Department: “Procurement Shared Services – FY 2008
Spending Plan” and Funds Tracker Summary Reports for FY 2008.


        Although some expenses were significantly overestimated, this overstatement was offset
by the exclusion of certain categories of expenses that should have been included in the
calculation of the fee. For instance, although A/LM/AQM included overseas procurement
activity in its estimate, it did not include overseas expenses, such as International Cooperative

14
     4 FAH 3 H-113.4-3, “Working Capital Fund.”

                                                      16
                                                 UNCLASSIFIED
                                                UNCLASSIFIED


Administrative Support Services costs.15 The PSS expenditures related to International
Cooperative Administrative Support Services ranged from approximately $900,000 in FY 2011
to $1.6 million in FY 2010. The Spending Plan also did not include the cost of audits performed
by the Defense Contract Audit Agency, which totaled $2.3 million in FY 2011, printing and
reproduction, which totaled $149,000 in FY 2011 and overhead, which totaled $5.1 million in
FY 2010. The estimation methodology also did not consider future program costs or initiatives.

        The U.S. Code16 states that the Department’s WCF should be reimbursed for “supplies
and services at rates which will approximate the expense of operations.” In addition, according
to guidance from GAO,17 “a reliable accounting of program costs is important” to “set fees so
that total collections cover the intended share of program costs.” The GAO guidance also states
that to “obtain such an accounting, it is necessary to determine which activities and costs should
be included and which should not.” The guidance goes on to state that if “a fee is to recover the
costs associated with an agency program or service or some portion thereof, it is critical that
agencies record, accumulate, and analyze timely and reliable data relating to those costs,
consistent with applicable accounting standards.” The GAO guidance also states that fees
“should also be set and adjusted to cover the intended share of costs over time, which means
agencies must project and consider future program costs.”

        Even though the initial methodology used to calculate the fee did not consider all factors,
as of January 2013, A/LM/AQM had not formally reassessed the fee amount since its inception
in 2008. According to an A/LM/AQM official, if the fee amount were modified each year, it
would be difficult for customers to plan and budget. An A Bureau official stated that the intent
was to reassess the rate after 5 years, which is what another Federal agency does for procurement
fees. A/LM/AQM believed that after 5 years of collecting the fee, it would have reached a
“mature” state and A/LM/AQM would have useful baseline financial information for moving
forward. An A/LM/AQM official indicated that using financial information from FYs 2008 to
2010 was “meaningless” because it took time to hire people, which distorted the numbers.
Although A/LM/AQM officials indicated that they planned to reassess the fee, A/LM/AQM had
not developed a formal plan or methodology for the reassessment.

       An A Bureau official indicated that he reviewed the rate every year during the budget
process to ensure revenue was adequate to cover expenses, but this review was not documented.
Reassessing a fee requires a different process than preparing or reviewing budget information, so
the A Bureau’s current process would not be sufficient to fulfill the fee-setting requirements.
According to GAO,18 a fee-setting process includes these key elements:

            Identifying and tracking costs.
            Forecasting costs and revenues.
15
   International Cooperative Administrative Support Services is the principal means by which the Government

provides and shares the cost of common administrative support, such as motor pool and building operations, at

diplomatic posts overseas.

16
   22 U.S.C. § 2684, “Capital fund for Department of State to centralize reproduction, editorial, data processing, 

audiovisual and other services; maximum amount; operation of fund.”

17
   Federal User Fees: A Design Guide (GAO-08-386SP, May 2008). 

18
   GAO-11-784, Sept. 2011. 



                                                     17
                                                UNCLASSIFIED
                                       UNCLASSIFIED



          Managing reserve balances (carryovers).

        Although an official stated that the A Bureau works continually throughout the year to
determine whether the fee “is adequate to cover the existing and future needs” of PSS, this effort
did not sufficiently address the factors identified by GAO. There was no evidence that the
periodic review considered all events that could impact future costs and revenues. For instance,
an A/LM/AQM official stated that although the PSS service center may have been operating with
revenues exceeding expenses, he believes that there will not be a large difference between
revenues and expenses in future fiscal years because of increased expenditures, such as for
additional staff. Another official stated that PSS service center income will be reduced in the
near future because some expenses are going up. For example, changes in the information
technology infrastructure will lead to increased expenses as these capabilities are increased
overseas. Also, A/LM/AQM planned to increase the number of audits that it funds, such as
contract close-out audits performed by the Defense Contract Audit Agency. In addition, there
was no evidence that the periodic budget review, conducted to determine whether the revenue
was sufficient to cover expenditures, considered the carryover amount that was available for the
A Bureau’s cost centers.

       According to GAO, fees that are not reviewed and adjusted regularly run the risk of
undercharging or overcharging users, raising equity, efficiency, and revenue adequacy concerns.
Based on the fact that revenues have consistently exceeded costs (see Finding A: Procurement
Funds Used for Non-Acquisition Related Activities), it appears that the amount of the fee may
need to be adjusted. Procurement-related funds were used for non-procurement activities;
however, because A/LM/AQM had not considered future expectations and reassessed the fee
based on these expectations, it is difficult to determine whether the amount of fee charged for
procurement services is reasonable.

         To ensure that customers have complete information about program costs and program
activities, A/LM/AQM should substantively review and report on the fee to customers regularly.
A transparent process for reviewing and updating fees helps assure customers that fees are set
fairly and accurately. A review of the fee amount can help ensure that fees remain aligned with
program costs and activities, increasing awareness of program costs and consequently increasing
incentives to reduce costs where possible. In response to an OIG administered customer
satisfaction survey, some customers questioned whether paying the fee provided a benefit. For
instance, one respondent said that “generally speaking,” bureau staff “feel that the services we
get do not in any way offset the 1% fee we pay.”

       Recommendation 3. OIG recommends that the Bureau of Administration develop and
       document a methodology for calculating the procurement-service fee, including a process
       to consider future program costs and the timeframe for periodically reassessing the fee.

       A Bureau Response: The Bureau of Administration concurred with this 

       recommendation.





                                            18
                                       UNCLASSIFIED
                                       UNCLASSIFIED


       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the bureau has
       developed and documented a methodology for calculating the PSS fee.

       Recommendation 4. OIG recommends that the Bureau of Administration reassess the
       amount of the fee to ensure that it is sufficient and supportable. The results of the
       reassessment should be made available to customers.

       A Bureau Response: The A Bureau concurred with this recommendation, stating that
       the fee “should be assessed in light of current circumstances to ensure they are sufficient
       and supportable.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the bureau has
       reassessed the PSS fee and that the results of the reassessment were made available to
       A/LM/AQM’s customers.

Finding B. Some Customer Service Improvements Were Made, but
Additional Improvements Are Needed To Accomplish Customer Service Goal
        A/LM/AQM’s Business Plan included a goal to improve customer service. According to
the Business Plan, customer service “drives A/LM/AQM’s goals, priorities, performance
measures, and commitment to continuous organizational improvement.” The Business Plan
indicated that A/LM/AQM would “expand its contracting, analytical and administrative
capacity.” The Business Plan also stated that “communication with internal customers” was
essential. The Business Plan included two initiatives to accomplish the customer service goal:
Customer and Stakeholders Interaction, which included conducting customer satisfaction
surveys, providing services to customers, and implementing a CSAB; and Organizational
Capacity Building, which included increasing internal and external staffing. Although
A/LM/AQM had taken steps to implement customer service-related initiatives, not all actions
taken were sufficient or successful. As a result, A/LM/AQM had not significantly increased
customer satisfaction since becoming a WCF cost center and had not developed a well-balanced
workforce that met the needs of its customers. OIG also identified other areas in which
improvements were needed to increase customer satisfaction.

Customer and Stakeholder Interaction Initiative Not Sufficiently Implemented

         One of the initiatives that A/LM/AQM identified to accomplish the customer service goal
was Customer and Stakeholder Interaction. According to the Business Plan, A/LM/AQM had
“instituted a number of formal and informal communication vehicles and mechanisms to
facilitate” ongoing dialogue. As part of this initiative, A/LM/AQM planned to conduct annual
customer satisfaction surveys and create a CSAB. The Business Plan also indicated that
A/LM/AQM was already providing certain services to its customers and had located
A/LM/AQM staff in some customers’ office spaces.



                                            19
                                       UNCLASSIFIED
                                        UNCLASSIFIED


        Although A/LM/AQM had taken steps to accomplish the Customer and Stakeholder
Interaction initiative, not all actions taken were sufficient or successful and, in some cases, had
been discontinued. Specifically, A/LM/AQM had conducted customer satisfaction surveys, but
had discontinued the surveys because A/LM/AQM management considered the response rates to
be too low. Although some offices within A/LM/AQM were obtaining customer feedback
through other means, A/LM/AQM had not implemented a formal feedback mechanism to replace
the annual customer satisfaction survey. Also, A/LM/AQM provided additional services to its
customers, but not all customers were aware of or used the services provided. A/LM/AQM also
placed procurement staff in some customers’ office spaces, which improved customer
satisfaction, but did not have a formal process to determine where to place the procurement staff.
OIG found that A/LM/AQM had implemented a CSAB; however, Board meetings were
discontinued because of low customer participation. Overall, A/LM/AQM had not significantly
improved customer service since becoming a WCF cost center.

       Customer Satisfaction Surveys No Longer Used and Other Formal Feedback
       Mechanisms Have Not Been Implemented

        One method that A/LM/AQM could have used to accomplish the Customer and
Stakeholder Interaction initiative was conducting annual customer surveys. Although
A/LM/AQM conducted customer surveys in 2008, 2009, and 2010, it had not formally
documented its efforts to address the concerns raised by its customers in the surveys. In
addition, A/LM/AQM discontinued its customer surveys because it considered the response rates
to the survey were too low and it had not yet implemented another formal feedback mechanism.
However, OIG found that the response rates to the A/LM/AQM surveys exceeded 20 percent.
Measuring customer satisfaction is a vital part of providing customer service.

        The Business Plan indicated that A/LM/AQM would perform annual customer surveys to
“solicit feedback on the perceived quality of its service delivery, support, and responsiveness.”
The objective of the customer survey was to analyze “customer service performance trends using
qualitative and quantitative data.” A/LM/AQM performed an annual customer satisfaction
survey from 2008 through 2010. (A/LM/AQM’s customer survey for 2010 is included as
Appendix C.)

        In a description of the results of its 2009 survey, A/LM/AQM stated that although the
results “showed a demonstrable improvement” from the 2008 survey results, A/LM/AQM would
need to continue to focus on “those areas where the overall satisfaction remained low,”
specifically, hiring and development initiatives, standardization, and customer outreach and
communication. A/LM/AQM officials indicated that many of the comments to the survey were
complaints about specific employees. A/LM/AQM management stated that they spoke with
some of the staff members about these complaints. Although A/LM/AQM indicated it would
take action to improve the issues identified during the 2009 customer survey, it did not document
the actions taken.

        The respondents to A/LM/AQM’s 2010 customer survey generally had positive opinions
about the services provided by A/LM/AQM. For instance, 67 percent of respondents either
agreed or strongly agreed that A/LM/AQM services were provided in a timeframe that met

                                             20
                                        UNCLASSIFIED
                                                  UNCLASSIFIED


customer needs, while only 10 percent of respondents disagreed or strongly disagreed. In
addition, 64 percent of respondents agreed or strongly agreed that A/LM/AQM provided
outstanding support and assistance, while 18 percent of respondents disagreed or strongly
disagreed. According to the statistics developed by A/LM/AQM, in general, the number of
people that agreed that services were sufficient had increased from the initial survey to the one
performed in 2010 while the number of people that disagreed that services were sufficient had
decreased. The 2010 survey did not include an analysis of the results or an action plan to address
issues raised by customers. According to an A/LM/AQM official, this was not needed as no
issues were raised as a result of the survey.

        A/LM/AQM discontinued the use of customer surveys after 2010. According to
A/LM/AQM officials, A/LM/AQM stopped surveying customers because of the lack of customer
response. An official stated that even though A/LM/AQM had repeatedly asked customers to
complete and return the survey, the survey still had a low response rate. According to
documentation provided by A/LM/AQM, the response rates for the customer surveys it
performed were 21 percent in 2010, 33 percent in 2009, and 53 percent in 2008. Based on
research,19 OIG determined that the average response rate for customer satisfaction surveys is
between 10 to 15 percent. Although A/LM/AQM’s response rate fell significantly from the first
survey in 2008 to the last survey in 2010, the rate exceeded industry standards for each of the 3
years in which the survey was administered.

        OIG asked A/LM/AQM how it would determine customer satisfaction without using a
formal feedback mechanism, like a customer survey. An official stated that A/LM/AQM would
rely on the business relationships that are currently in place. A/LM/AQM had embedded
personnel in a number of program offices that provide immediate customer service support. The
A/LM/AQM Director and other senior managers met regularly with customers to ensure the
customers were satisfied. Customers could also send concerns to an email address established
specifically for customer inquiries.

        In addition, even though it had discontinued the annual customer satisfaction surveys,
A/LM/AQM was trying to identify an alternative methodology to obtain customer feedback. For
instance, the Information Technology Commerce Division within A/LM/AQM, which managed
the Department’s residential furniture contract and provided secure procurement services, sent
links to a “Rate My Service” survey via email after assistance had been provided to a customer.
The survey currently in use includes two questions:

               “To what extent do you agree with the following aspects of customer service
                provided” for 11 different activities, such as “provide requested acquisition services
                in a time frame that meets my needs.”
               “How can we better meet your needs,” which provides a space for customers to
                respond narratively.

         An A/LM/AQM official stated that A/LM/AQM would consider the success of this
initiative and decide whether to expand this methodology to other A/LM/AQM divisions. The
use of this feedback mechanism was not mandated by A/LM/AQM; therefore, it was up to the
19
     This information was obtained from the Internet Web sites of three companies that offer survey software.

                                                       21
                                                  UNCLASSIFIED
                                       UNCLASSIFIED


discretion of each division or branch as to whether it wanted to obtain customer feedback on
services provided. Although not mandated, a bureau official stated that other branches or
divisions within A/LM/AQM were free to use this survey process, but none had requested to do
this.

        Measuring customer satisfaction is a vital part of any organization that provides customer
service. Considering that A/LM/AQM’s funding relies on fee collection, it should have a formal
and well-designed process in place to assess customer satisfaction and to take actions to address
the concerns identified by customers. A/LM/AQM is in a unique position of being funded from
fees but having a customer base that is not able to use another service provider if they are
dissatisfied with the services received. Therefore, it is especially important for A/LM/AQM to
be aware of and to address customer concerns.

       Recommendation 5. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop and implement a
       formal process to obtain feedback from customers that would include providing
       customers information on the results of the effort including specific plans on how
       concerns would be addressed.

       A Bureau Response: The A Bureau concurred with this recommendation, stating that it
       was already conducting “numerous outreach events with several Department Executive
       Directors.” The A Bureau also stated that it would “revisit previous initiatives such
       as…annual customer surveys as ways to obtain customer feedback.”

       OIG Reply: OIG considers this recommendation resolved. While OIG recognizes the
       actions already taken by A/LM/AQM to improve its customer outreach, a formal process
       to obtain customer feedback is an important component of any customer service
       organization. Therefore, this recommendation can be closed when OIG reviews and
       accepts documentation showing that A/LM/AQM has developed and implemented a
       formal process to obtain customer feedback and has shared the results with its customers.

       Additional Services Provided but Not All Customers Aware of or Used Services

        Another method to accomplish the Customer and Stakeholder Interaction initiative was to
provide certain services to customers. Although A/LM/AQM was providing the services it had
included in the Business Plan, as well as other new services, some customers were unaware that
A/LM/AQM provided certain services, and some customers that were aware of the services
provided were not taking advantage of them. OIG concluded that A/LM/AQM did not
sufficiently communicate the services available to all customers. A/LM/AQM may not be able
to achieve its commitment to providing customer-focused service unless it improves its
communications with its customers about the services it offers.

       In its Business Plan, A/LM/AQM indicated that one of the methods it would use to
accomplish its Customer and Stakeholders Interaction initiative was to provide the following
services to customers:



                                            22
                                       UNCLASSIFIED
                                               UNCLASSIFIED


               Procurement planning.
               Assistance with drafting and writing statements of work.
               Increased cost and price support.
               Increased audit requests, through OIG20 and the Defense Contract Audit Agency.
               Funding A/LM/AQM travel.
               Outside review support, such as with the Wartime Contracting Commission.
               Synchronized Predeployment & Operational Tracker. 21
               Quality assurance reviews including Federal Procurement Data System (FPDS).
               Contract closeout survey and execution.

       As shown in Table 4, OIG found that A/LM/AQM was providing the services listed in its
Business Plan22 as well as some additional services not included in the plan.23

Table 4. Comparison of Services Provided by A/LM/AQM in FY 2007 and FY 2011
      Services              FY 2007 Services              FY 2011 Services
                               Assistance provided case by case for         Procurement planning performed
     Procurement planning
                                       large procurements.                             regularly.
     Assistance with           Bureaus responsible for statements of     Regular assistance with and review of
 statements of work and       work and justification documents. COs       statements of work and justification
 justification documents       provided assistance as time allowed.                   documents.
 Procurement advice and                                                  A/LM/AQM staff available to support
                                 Assistance provided in an ad hoc
  consultation, including                                              customers with procurement planning and
                                             manner.
 cost and pricing support                                                       contract administration.
          Audits
                                       Funded by bureaus.                        A/LM/AQM funded.
       Site visit travel –
                                       Funded by bureaus.                        A/LM/AQM funded.
         A/LM/AQM
                                                                       A/LM/AQM has established a structure to
                                                                        support inquiries or reviews being done
     Outside review support
                                Provided on a case-by-case basis.      by organizations such as OIG, Congress,
                                                                             and the Wartime Contracting
                                                                                     Commission.
                                                                       A/LM/AQM has established a structure to
         New initiative                                                  support new requirements, such as the
                                Provided on a case-by-case basis.
         coordination                                                       Synchronized Predeployment &
                                                                                 Operational Tracker.


20
   Since A/LM/AQM became a WCF cost center, it has requested that OIG monitor one audit being performed by an
external audit firm that A/LM/AQM funded.
21
   The Synchronized Predeployment & Operational Tracker is a single, joint enterprise system for the management,
tracking, and visibility of contractors and grantees being deployed overseas to combat zones (currently Iraq and
Afghanistan).
22
   Table 4 does not include two services included in the Business Plan: QA Reviews and Contract Closeout Survey.
These services are being provided, but A/LM/AQM considers these services to be internal reviews. OIG’s
discussion about these services is included in Finding C: Internal Reviews Performed but Effort Could be
Expanded.
23
   The FY 2011 list of services offered by A/LM/AQM included some services that were focused on workforce
development initiatives like “family friendly workplace.” Although these services benefit customers indirectly,
since they are not services provided directly to the customer, OIG did not include them in Table 4.


                                                    23
                                               UNCLASSIFIED
                                               UNCLASSIFIED


           Services                   FY 2007 Services                            FY 2011 Services
                                                                            Increased staff allows for dedicated
        Embedded staff                        None.                      resources to work on site with customers
                                                                             who have complex requirements.
      Market research and
                                                                           Several strategic sourcing initiatives
      analysis to maximize             Bureaus responsible.
                                                                                          offered.
             buying
                                                                           Cost/price analysts available to support
                                                                              all major acquisitions, including
 Evaluation coordination                      None.
                                                                             evaluating proposals and drafting
                                                                                solicitation pricing sections.
                                                                             Staff on hand to support COs with
      Terminations, claims
                                                                         terminations, claims services, and protest
        services, protest        Provided on a case-by-case basis.
                                                                           management, including expanded legal
          management
                                                                                           support.
                                                                         COs use weekly reporting to discuss open
                                                                          requisitions and completed transactions.
     Metrics and reporting                    None.                       A/LM/QM measured activity by bureau,
                                                                          including volume and procurement lead
                                                                                             time.
        Acquisitions and
        financial systems                     None.                          Integrated system implemented.
           integration
                                                                      Working closely with the Bureau of the
        Contractor held
                                           Inconsistent.                 Comptroller and Global Financial
     property administration
                                                                      Services to monitor contractor property.
Source: A Bureau Presentation “Acquisition Report – Usage of Fee-for-Service,” Feb. 2011.

       The responses to OIG’s survey of A/LM/AQM customers indicated that the majority of
customers were aware of the services offered by A/LM/AQM. However, customer awareness
varied by category of service, as shown in Table 5.24 For instance, although 93 percent of
customers knew that A/LM/AQM provided support for protests of contracts, only 68 percent
were aware that A/LM/AQM provided assistance with cost and pricing support.

                Table 5. Customer Awareness of A/LM/AQM Services
                      A/LM/AQM Services            Aware       Not Aware
                 Assists with procurement planning               72%                   28%
                 Assists with and reviews statements
                 of work                                         81%                   19%
                 Assists with cost and pricing support           68%                   32%
                 Assists in evaluation coordination              77%                   23%
                 Assists in contract terminations                90%                   10%
                 Assists with claim services                     83%                   17%
                 Assists with managing protests of
                 contracts                                       93%                    7%
                Source: Customer satisfaction survey performed by OIG.


24
  The information in Table 5 is from 226 respondents to an OIG survey. The respondents included CORs and
government technical monitors with active contracts or bureaus’ Executive Directors. OIG did not request feedback
from customers on all services provided by A/LM/AQM. Appendix A: Scope and Methodology includes details on
the customer survey performed.

                                                    24
                                               UNCLASSIFIED
                                       UNCLASSIFIED

        Even though a majority of customers were aware of the services that were being
provided, a significant number of respondents were not using those services. For instance,
approximately 48 percent of respondents that were aware of the procurement planning services
provided by A/LM/AQM had never used those services. In addition, approximately 42 percent
of people that were aware of contract negotiation services indicated that they had never used
those services.

        OIG found that A/LM/AQM included general information about the procurement
services offered on its Intranet Web site. Specifically, the Web site stated that “A/LM/AQM
provides professional contract management services including acquisition planning, contract
negotiations, and cost and price analysis.” There were other areas within the A/LM/AQM
Intranet Web site where customers could find information on the processes used by A/LM/AQM
related to the services provided. In addition, officials stated that A/LM/AQM provided a list of
services entitled “What you get for 1%” to customers; however, this listing did not include a
description of the services provided or how a customer would obtain the services offered. The
number of customers that indicated they were unaware of services provided or had not used
those services indicates that A/LM/AQM needs to improve its communication with customers to
ensure that customers are aware of available services and the benefits of using those services.
For instance, A/LM/AQM could track customer usage of each service provided to gauge which
customers use which services and target information on available services to customers not
currently using all services provided.

        If customers are not aware of the services that are being provided, they are not able to
take advantage of the services that they are funding through the procurement fee. One customer
stated that “our staff frequently…wonder what the 1% actually pays for.” Another respondent
suggested that A/LM/AQM provide “shared resource planning and acquisitions strategy,” which
would “aid in better contract planning as acquisitions are submitted to AQM.” A/LM/AQM
cannot achieve its commitment to provide customer-focused service unless it improves its
communications with its customers about the services it offers.

       Recommendation 6. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop and implement a
       plan of action to inform customers of the services that it provides, and the benefits of
       using these services, including enhancing its Intranet Web site.

       A Bureau Response: The A Bureau agreed with this recommendation.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/LM/AQM has
       planned to inform customers of its services and the benefits derived from using these
       services.

       Procurement Support Embedded in Some Bureaus

      Another step to accomplish the Customer and Stakeholder Interaction initiative was to
implement “mechanisms to facilitate” ongoing dialogue with customers, such as “embedding”

                                            25
                                       UNCLASSIFIED
                                               UNCLASSIFIED

support personnel with some customers. A/LM/AQM had successfully embedded procurement
personnel in at least nine bureaus and offices.25 However, OIG found that A/LM/AQM did not
have a formal process to determine where to place embedded staff. Customers who had
embedded personnel were generally more satisfied with services provided by A/LM/AQM than
customers who did not have embedded staff. Based on customer feedback, OIG considers
providing embedded personnel to be a best practice.

         The Business Plan stated that A/LM/AQM would establish a number of vehicles to
facilitate communications and had already embedded some COs into major customers’ office
spaces. OIG found that since A/LM/AQM became a WCF cost center, it had successfully
“embedded” more than 30 procurement personnel, including COs and contracting specialists and
one grants officer, in at least nine bureaus.26 Embedded procurement staff perform the same
work that other procurement staff perform, such as processing procurement actions or assisting
with statement of work development, but they are physically located at the customer’s office.

        A/LM/AQM chose to embed staff in the offices of its customers because it believed that
this type of day-to-day interaction between program and procurement officials would enhance
communications. In addition, embedded personnel would enable A/LM/AQM to maintain
awareness of procurement issues, and customers would have regular access to procurement
support.

        Although A/LM/AQM had embedded staff, it did not have a formal process in place to
determine where to place them. A/LM/AQM initially offered embedded staff to bureaus and
offices with which it had an SLA (for information on SLAs, see Finding D: Service Level
Agreements Had Been Implemented With Interested Customers). However, A/LM/AQM had
since expanded the service to other bureaus and offices. An A/LM/AQM official stated that the
informal process used to determine where to embed staff included coordinating with customers.
In addition, A/LM/AQM typically embedded staff in offices that had complex contractual needs.

        OIG concluded that using embedded personnel had been a successful method to improve
customer satisfaction through customer interaction. The responses to OIG’s customer survey
indicated that customers with embedded procurement support found A/LM/AQM assistance to
be somewhat more useful and were much more satisfied with the timeliness of services provided
by A/LM/AQM than respondents who did not have embedded procurement personnel.
Specifically, approximately 45 percent of respondents with embedded procurement staff
indicated that they found A/LM/AQM’s assistance to be greatly or very greatly useful compared
to 42 percent of people without embedded staff. More significantly, approximately 51 percent of
respondents that used embedded personnel were generally or very satisfied with the timeliness of
A/LM/AQM assistance compared to 42 percent of respondents that did not use embedded
procurement staff. One respondent wrote “the embedded CO/Contract Support person” had been
“instrumental in helping resolve numerous issues, answer[ing] contractual questions, help[ing]
with research, and providing this office with immediate assistance when needed.” Another
respondent replied that there was daily interaction with the embedded staff person and that “the
working relationship is outstanding.”

25
     During audit fieldwork, A/LM/AQM was unable to provide OIG with a complete list of embedded staff.
26
     OIG has one embedded contracting specialist who assists OIG with procurements.

                                                    26
                                               UNCLASSIFIED
                                       UNCLASSIFIED

        Other responses to the OIG survey indicated that opportunities existed to expand this
program to other locations. Of the 122 respondents who did not have embedded contract
support, 51 (42 percent) indicated that they would be interested in this service. One respondent
wrote that embedded staff “would save a great deal of time, and strengthen our relationship with
AQM, while ensuring better services/products from our vendors.” Another customer stated that
“we would be very interested in having an ‘embedded’ AQM resource to support our Bureau.
To my knowledge, we have never been approached with the option. This survey was the first
time I was even aware it was in practice.” Based on customer feedback, A/LM/AQM should
consider expanding the implementation of the best practice of embedding procurement staff in
customers’ offices.

       Recommendation 7. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management (A/LM/AQM), develop a
       formal methodology to identify customers who want and whom A/LM/AQM determines
       would benefit from on-site procurement staff.

       A Bureau Response: The A Bureau agreed with this recommendation.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/LM/AQM has
       developed a methodology to identify customers who want and would benefit from having
       embedded procurement staff.

       Recommendation 8. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management (A/LM/AQM), take action to
       provide on-site procurement staff to bureaus and offices that A/LM/AQM determines
       would benefit from this practice.

       A Bureau Response: The A Bureau agreed with this recommendation, stating that it
       currently provides “on-site procurement staff to bureaus and offices in need of this type
       of support” and that “have the office space to accommodate additional staff.”

       OIG Reply: OIG considers this recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation indicating that A/LM/AQM has
       taken action to follow the methodology developed to identify customers who want and
       whom A/LM/AQM determines would benefit from on-site procurement staff.

       Customer Service Advisory Board Meetings Held but Discontinued Because of Lack
       of Customer Participation

       The Business Plan also stated that A/LM/AQM would implement a CSAB to accomplish
the Customer and Stakeholder Interaction initiative, which it did. However, A/LM/AQM
discontinued CSAB meetings because of the lack of customer attendance. The CSAB is an ideal
forum for providing information to customers and obtaining customer input. By providing
customers with the opportunity to participate on a CSAB, A/LM/AQM had addressed this
component of the Customer Stakeholder Interaction initiative.

                                            27
                                       UNCLASSIFIED
                                       UNCLASSIFIED

        In its Business Plan, A/LM/AQM indicated that one of the methods it would use to
improve customer service was the development of a CSAB to “facilitate communication between
A/LM/AQM and its customers and stakeholders.” The objective of the CSAB was to provide
“an organized recurring forum to facilitate and solicit customer interaction and communication.”
A/LM/AQM wanted to obtain customer perspectives to assist in determining procurement
priorities and processes. A/LM/AQM anticipated that the Board would help mitigate
communication issues that could arise from the creation of the WCF cost center. A/LM/AQM’s
customers would be involved in the transformation of how services were provided by
A/LM/AQM, and the CSAB would make recommendations for improvements.

        A/LM/AQM implemented the CSAB in 2008. The Board included representatives from
some of A/LM/AQM’s largest customers, such as the Bureaus of Overseas Buildings Operations,
Diplomatic Security, and International Narcotics and Law Enforcement Affairs. The Board also
included representatives from other bureaus, such as the Bureau of Resource Management (now
called the Bureau of the Comptroller and Global Financial Services) and the Bureau of African
Affairs, so that other functional and regional bureaus would be represented. A/LM/AQM
originally planned to hold CSAB meetings quarterly. The first CSAB meeting was held in
November 2008. However, according to meeting minutes provided by A/LM/AQM, only two
additional meetings were held, the last one in February 2010.

       A/LM/AQM discontinued CSAB meetings because customer participation at the
meetings decreased significantly. Specifically, seven customers attended the first and second
meetings, but only three customer bureaus were represented at the meeting held in February
2010. A/LM/AQM officials were not sure why customers chose not to attend the CSAB
meetings but thought that it was because there were other more direct mechanisms for customers
to communicate with A/LM/AQM, such as embedded staff.

       OIG contacted three former Board members to get their perspective on the CSAB. One
member attributed the lack of customer participation to some attendees discussing details of
bureau-specific procurements rather than focusing on larger issues at the meetings. Another
member stated that Board members had competing demands, such as those related to the
Department’s efforts in Iraq, which took their focus away from the CSAB. The third Board
member was unsure why people stopped attending the Board meetings.

        The CSAB would be an ideal forum for customers to obtain information on how
A/LM/AQM uses the fees that it collects, to have input on A/LM/AQM initiatives, and to effect
positive change related to customer service. Although A/LM/AQM had discontinued the CSAB
meetings because of insufficient participation, A/LM/AQM addressed this component of the
Business Plan initiative related to customer interaction by providing customers the opportunity to
participate in a CSAB.

Organizational Capacity Building Initiative Not Sufficiently Implemented

        Another initiative included in A/LM/AQM’s Business Plan to accomplish its customer
service goal was Organizational Capacity Building. According to the Business Plan,
A/LM/AQM would ensure it had “the requisite level of procurement expertise and support by

                                            28
                                       UNCLASSIFIED
                                              UNCLASSIFIED

expanding the scope and size of the professional workforce (both employees and contractors).”
A/LM/AQM’s objective was to create a “well-balanced team of experts that exceeds
customer/stakeholder needs and requirements.” As part of this initiative, the Business Plan
indicated that A/LM/AQM would address both internal and external staffing. OIG found that
A/LM/AQM had increased the size of its workforce since becoming a WCF cost center and was
funding some staff in other bureaus. However, the amount of procurement activity had increased
at a higher rate than the increase in staff. A/LM/AQM did not have an updated staffing plan that
it could use to analyze its workforce and identify gaps. As a result, A/LM/AQM had not
developed a well-balanced workforce that met the needs of all of its customers.

        Increases in Internal Staff Have Not Kept Pace With Increases in Procurement
        Activity

        For internal staffing, the Business Plan indicated that A/LM/AQM wanted to have a
“multi-faceted and diverse team that would provide effective, accountable, and responsive
procurement and grant services.” Some of the internal staff hired by A/LM/AQM would be
Government employees and others would be contract personnel.27 In FY 2008, A/LM/AQM set
an informal goal to increase its direct hire staff to 200 employees within 5 years of becoming a
WCF cost center, by February 2013. A/LM/AQM was unable to provide support for how this
goal was set.

        OIG found that A/LM/AQM had increased the size of its internal workforce since
becoming a WCF cost center. From FY 2007 through FY 2011, A/LM/AQM increased its
internal direct hire workforce by 45 positions—from 111 to 156. A significant portion of that
increase was for contracting staff. Specifically, the number of contracting professionals28
increased by 37 positions, from 90 at the end of FY 2007 to 127 at the end of FY 2011, a 41
percent increase. The remaining increase in the workforce was for support staff.29 A/LM/AQM
officials believed that they were generally on track to meet their direct hire staffing goal. As of
January 2013, A/LM/AQM had 185 direct hire employees on board, 11 individuals had been
hired but were not yet on board, and 5 positions were unfilled.

        A/LM/AQM had increased the overall number of staff since becoming a WCF cost center
but the number of transactions processed by each contracting professional had also increased.
Specifically, as of the end of FY 2011, the number of transactions processed by contracting
professionals had increased by about 55 percent since FY 2007, while the number of contracting
professionals increased 41 percent. In FY 2011, on average a contracting professional processed
approximately 10 percent more transactions than a contracting professional had processed in FY
2007. This was a significant improvement from FY 2010, when the contracting professionals

27
   WCF cost centers can increase the number of direct hire positions as long as the cost center has the necessary
funding for the position, including both salaries and benefit expenses.
28
   A/LM/AQM’s professional contracting staff is designated with occupational code of 01102 on their staffing
patterns. According to the Office of Personnel Management’s Position Classification Standard for Contracting
Series, GS-1102, this code covers both contracting specialists and contracting officers with the distinction that
contracting officers have delegated contract signatory authority.
29
   A/LM/AQM’s internal staff includes not only contracting professionals but also logistics management specialists,
management analysts, and procurement agents. These individuals provide support to the contracting professionals
in areas such as contract close-out and database management.

                                                   29
                                              UNCLASSIFIED
                                              UNCLASSIFIED

processed more than 30 percent more transactions than contracting professionals processed
before A/LM/AQM became a WCF cost center. The workload for contracting professionals
from FY 2007 to FY 2011 is shown in Table 6.

Table 6. Workload per Contracting Professional for FYs 2007 – 2011
                                           Transactions           Increase/
                           Number of       Processed per        (Decrease) in
  Fiscal   Transactions Contracting         Contracting      Activity Per Person
  Year      Processed     Professionals     Professional       Since FY 2007
  2007            15,418             90                171                     --
  2008            16,602             91                182                    6%
  2009            19,735            103                192                  12%
  2010            23,160            104                223                  30%
  2011            23,934            127                188                  10%
Source: OIG generated from A/LM/AQM provided data.

                                                                                  30
        A/LM/AQM had also increased the number of contractor staff. When A/LM/AQM
converted to a cost center, it had 39 contractors supporting its workforce. At the end of FY
2008, the number of contractors had increased to 63, a 62 percent increase. In FY 2010,
A/LM/AQM reached the highest number of contractors, 106, but by the end of FY 2011, the
number of contractors had been reduced to 87 individuals. Although the number of contractors
continued to decline to 81 individuals by mid FY 2012, the number remained significantly above
the 39 contractors in FY 2008.

        External Staff Have Been Funded

        For external staffing, the Business Plan indicated that A/LM/AQM wanted to provide its
partners, such as the Office of Legal Advisor, with staff to “enhance their ongoing support of
A/LM/AQM activities.”31 Before it became a cost center, A/LM/AQM did not fund any
positions in other bureaus. Since becoming a cost center, A/LM/AQM had funded staff within
other Department bureaus. Specifically, an A/LM/AQM official indicated that A/LM/AQM
funded one lawyer within the Office of the Assistant Legal Advisor for Building and
Acquisitions to assist with acquisition protests, claims, and terminations and one contractor
position within the same office to assist the lawyer. A/LM/AQM also funded one accountant
with the Bureau of the Comptroller and Global Financial Services, at the Global Financial
Services Center in Charleston, South Carolina.




30
   According to A/LM/AQM management, its contractor staff provided computer and administrative support,
performed market research, and reviewed data entered into FPDS. A/LM/AQM used contracting staff to supplement
its workforce in order to have the flexibility to reduce staff quickly should there be a decrease in the amount of
acquisition work required by their customers.
31
   The external staff positions are different than embedded staff discussed in Finding B: Procurement Support
Embedded in Some Bureaus. Specifically, embedded staff are considered A/LM/AQM employees, while the
external staff are funded by A/LM/AQM but are considered employees of the bureau or office.

                                                   30
                                              UNCLASSIFIED
                                           UNCLASSIFIED


        Updated Staffing Plan Not Developed

        Although A/LM/AQM increased its workforce, it had not increased the number of
procurement staff sufficiently to cover the increased workload because it did not strategically
plan for future workforce needs. Specifically, A/LM/AQM did not have an updated, useful
staffing plan in place. A staffing plan is a planning document used by management to analyze its
workforce and identify gaps in its staffing. A/LM/AQM had not prepared a staffing plan for its
procurement operations since February 2008, and that document had not been updated to reflect
the increase in procurement transactions being processed. The 2008 staffing plan listed, by
division and position type, the goals for staffing increases. A/LM/AQM could not provide the
methodology used to determine the goals in the 2008 staffing plan; however, one A/LM/AQM
official believed that the goals were based on a survey of A/LM/AQM division directors to
determine the number of staff the directors believed they needed to effectively process
procurement transactions. These numbers were then “adjusted for overall organizational needs.”

        Although A/LM/AQM did not have a current staffing plan in place, A/LM/AQM
management provided OIG with a copy of the Department’s Acquisition Human Capital Plan,
which included acquisition workforce data for the Department, specifically the number of
contracting professionals on staff for the prior and current fiscal years and the anticipated
number of contracting professionals that the Department planned to have on board for the next
fiscal year. While this is a useful report for external users to understand the procurement-related
staffing levels, it is not sufficient to take the place of a well-designed staffing plan. The
Acquisition Human Capital Plan focused on actual staff on board and anticipated staff that would
be coming on board in the upcoming fiscal year rather than assessing the overall needs of the
organization, including the types of abilities needed to ensure the procurement services provided
were sufficient.

        Workforce Insufficient for Customer Needs

        By not strategically planning for the future needs of its workforce, A/LM/AQM
management could not ensure that it had the well-balanced team of experts envisioned in its
Business Plan. In addition, A/LM/AQM had not ensured that the scope and size of its
professional workforce was sufficient to meet the needs of its customers. More than 15
respondents to OIG’s customer satisfaction survey identified concerns with the adequacy of
A/LM/AQM’s staffing level. For instance, one customer commented “I believe AQM does not
have adequate amount of people working based on the demands by [customer’s office]. Because
there is not enough employees…things move at a snails pace.” Another customer stated
“A/LM/AQM appears to be chronically understaffed.”

       In addition to its customers, GAO also reported concerns with the adequacy of
A/LM/AQM’s staffing level. In a recent report,32 GAO concluded that the Department did not
possess “the contracting or subject matter expertise to plan, manage, and oversee contracts” in
Iraq and Afghanistan. Specifically, GAO found that the Department of Defense had 71 full-time
personnel involved in planning, awarding, and overseeing a support services contract in Iraq that

32
 Iraq and Afghanistan – State and DOD Should Ensure Interagency Acquisitions Are Effectively Managed and
Comply with Fiscal Law (GAO-12-750, Aug. 2012).

                                                31
                                           UNCLASSIFIED
                                             UNCLASSIFIED

was being turned over to the Department, while the Department had only provided 2 full-time
and 16 part-time personnel to perform the same function.

        Without strategically planning for the future needs of its workforce, A/LM/AQM will not
obtain the knowledge and critical skills needed to perform required contracting and cannot
ensure that it achieves its objective of creating a well-balanced team of experts that exceeds
customers’ needs and requirements.

           Recommendation 9. OIG recommends that the Bureau of Administration, Office of
           Logistics Management, Office of Acquisitions Management, develop a 3-year staffing
           plan that identifies the number of staff needed and the required mix of staff, based on
           expectations of contracting needs, including contract oversight responsibilities.

           A Bureau Response: The A Bureau agreed with this recommendation, stating that it
           currently “plans for staffing needs” and incorporates the information into the
           Department’s Acquisition Human Capital Plan. However, the A Bureau stated that it
           would supplement the Acquisition Human Capital Plan “with a more robust staffing
           plan.”

           OIG Reply: OIG considers this recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation showing that A/LM/AQM has
           developed a 3-year staffing plan, which includes the number and mix of staff positions.

Additional Areas of Improvement Needed To Address Customer Satisfaction

        In addition to the issues related to the initiatives for the customer service goal included in
the Business Plan, OIG noted other areas that A/LM/AQM could address to improve customer
service. Specifically, although A/LM/AQM included a customer service-related element in
employees’ performance standards, the element was not sufficient to address customer service.
In addition, A/LM/AQM did not require that its procurement staff attend customer service
training. Further, many A/LM/AQM customers were not aware of the A Bureau’s Customer
Advocate.

           Customer Service-Related Performance Standards Not Sufficient

       An A/LM/AQM official indicated that all contracting employees, regardless of grade,
have a customer service requirement in their performance standards. However, the requirement
was limited to assessing whether an employee “contributes to the office’s responsiveness by
replying to emails and phone calls within one work day on average (unless in training, on TDY,
or approved leave).” This standard focuses on the timeliness of communication, not the
timeliness or quality of the procurement services provided.

       An Office of Personnel Management guide relating to customer service33 states that
“agencies need tools to help them achieve customer satisfaction goals. The performance
management program an agency establishes can be an important tool for aligning and setting
33
     “Improving Customer Service Through Effective Performance Management,” PMD-04, Sept. 1997.

                                                  32
                                             UNCLASSIFIED
                                       UNCLASSIFIED

customer service goals and standards.” The Office of Personnel Management guide indicates
that goal setting is the first component of effective performance management. When goals are
customer-focused, employees’ efforts are centered on customer satisfaction. Asking customers
what they want is the most important part of setting customer service performance standards.
Once customers’ needs are determined, A/LM/AQM could identify attributes that define quality
for customers and define specific performance standards and indicators based on these goals.
The Office of Personnel Management guide also indicated that measuring customer satisfaction
provides feedback to employees on their efforts to achieve customer service goals. As discussed
in Finding B: Customer Satisfaction Surveys No Longer Used and Other Formal Feedback
Mechanisms Have not Been Implemented, A/LM/AQM did not have a formal mechanism in
place to obtain customer feedback on A/LM/AQM’s performance.

       Recommendation 10. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management (A/LM/AQM), revise the
       performance standards of its employees to include additional standards related to
       customer service. A/LM/AQM should consult with customers on their needs and develop
       these additional standards accordingly.

       A Bureau Response: The A Bureau agreed with this recommendation.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/LM/AQM has
       revised employee performance standards.

       Customer Service Training Not Mandated

        A/LM/AQM officials stated that its employees were not required to take customer service
training. Customer service training teaches employees the knowledge, skills, and competencies
required to increase customer satisfaction. One official indicated that some employees had taken
a 3-day customer service course offered by the Foreign Service Institute, but this course was not
required. Based on the results of OIG’s customer satisfaction survey, OIG concluded that
A/LM/AQM needs to take steps to improve customer service. Several respondents cited
concerns with A/LM/AQM’s customer service, for instance, one respondent stated that “We have
found [the A/LM/AQM person who provides services] to be very curt, sometimes even rude,
insulting, or bullying.” Another customer stated that “Frequently I and [other people in the
respondents office are] confronted with an astounding level of hostility, condescension, and
out-right rudeness.” In addition, one person stated that “I find AQM to be very disrespectful in
their communications and interaction with our office. Their condescending tone and
untouchable demeanor has garnered an atmosphere of distrust.” Employees who are properly
trained and who demonstrate professional customer service skills can improve customer
satisfaction.

       Recommendation 11. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop a mandatory
       customer service training curriculum for its employees.



                                            33
                                       UNCLASSIFIED
                                           UNCLASSIFIED

          A Bureau Response: The A Bureau agreed with this recommendation, stating that it
          would use the “Foreign Service Institute to provide customer service training.”

          OIG Reply: OIG considers this recommendation resolved. This recommendation can be
          closed when OIG receives documentation describing the customer service training that
          the A/LM/AQM procurement staff are required to receive.

          Customers Generally Unaware of Customer Advocate
                                                  34
        The Department’s Foreign Affairs Manual indicates that the A Bureau has a Senior
Advisor who serves “as a customer advocate for all” customers of the A Bureau’s Office of
Logistics Management “throughout the Department.” A customer advocate’s job is to protect the
rights of the customer. The A Bureau’s Customer Advocate is responsible for three offices—
Office of Program Management and Policy, Logistics Operations, and A/LM/AQM. According
to the Customer Advocate, the position was created at least 5 years ago and the duties include
finding a resolution between offices and customers for non-routine issues. The Customer
Advocate stated that he usually is approached by A Bureau staff asking for assistance in handling
a customer’s complaint rather than by customers. The Customer Advocate estimated that he had
only received 5–6 issues involving A/LM/AQM for consideration during the year he had been in
the position. He assumed that A/LM/AQM was doing a good job, since there were so few issues
raised with him.

        OIG asked customers whether they were aware of the Customer Advocate position. Of
226 customers who responded, only 37 (16 percent) were aware of this position. Almost 84
percent of customers who responded were unaware that they could contact a customer advocate
with concerns. According to the Customer Advocate, he was once introduced at a regional
bureau workshop but had not been introduced to other individuals involved in procurement. OIG
reviewed the A Bureau’s Intranet Web site and could find no mention of the Customer Advocate
position. In fact, the title of the person currently holding the position of Customer Advocate is
listed as “senior advisor.” For this position to be meaningful, A/LM/AQM must ensure that
customers are aware it exists.

          Recommendation 12. OIG recommends that the Bureau of Administration, Office of
          Logistics Management, develop and implement a plan to ensure that customers are aware
          of the Customer Advocate position.

          A Bureau Response: The A Bureau agreed with this recommendation.

          OIG Reply: OIG considers this recommendation resolved. This recommendation can be
          closed when OIG reviews and accepts documentation showing that the Bureau of
          Administration, Office of Logistics Management, has developed a Customer Advocate
          awareness plan.




34
     1 FAM 215.1, “Senior Advisor (A/LM/ADV).”

                                                34
                                           UNCLASSIFIED
                                        UNCLASSIFIED


Most Customers Satisfied With Services, but Significant Numbers Expressed
Dissatisfaction

        Because A/LM/AQM had not performed a recent customer satisfaction survey, OIG
surveyed A/LM/AQM’s domestic customers. (See Appendix A: Scope and Methodology for a
description of the process used for the survey.) The survey, including a summary of responses,
is included in Appendix B. OIG achieved a response rate to the survey of more than 30 percent.
In general, OIG found that most customers were satisfied with the service they received from
A/LM/AQM. However, a significant number of customers were not satisfied. In addition, OIG
found that few customers noted increased satisfaction with A/LM/AQM services since it had
become a cost center, and more customers were generally dissatisfied.

        OIG asked respondents to rate their satisfaction with certain services being provided by
A/LM/AQM. In general, more than 45 percent of respondents were either generally or very
satisfied with the various services being provided by A/LM/AQM that were included in the
survey. Almost 62 percent of respondents were either generally or very satisfied with assistance
provided by A/LM/AQM for procurement planning, and more than 58 percent of respondents
were either generally or very satisfied with A/LM/AQM’s contract negotiations. Although many
respondents were satisfied with the services provided, between 14 and 33 percent of respondents
indicated that they were dissatisfied, depending on the service. For instance, more than
26 percent of respondents indicated that they were either generally or very dissatisfied with
A/LM/AQM’s assistance with and reviews of statements of work, and more than 30 percent of
respondents indicated that they were either generally or very dissatisfied with A/LM/AQM’s
assistance with cost and pricing support.

        Although one of A/LM/AQM’s goals was related to customer satisfaction, OIG found
that customers were only slightly more satisfied now than they were prior to 2008. Specifically,
OIG asked respondents to rate to what extent they found assistance or information provided by
A/LM/AQM useful both before and since it had become a WCF cost center in 2008. Since
becoming a WCF cost center, the percentage of customers that found the assistance or
information provided by A/LM/AQM to be of great or very great use had increased from
39 percent to 43 percent. However, the percentage of customers that found the assistance or
information provided by A/LM/AQM of some or little to no use since it became a cost center
also increased, from 25 percent to 31 percent. Although some respondents noted improvement in
this area since A/LM/AQM had become a cost center, others were less satisfied.

        OIG also asked respondents to rate their satisfaction with the timeliness of assistance or
information provided by A/LM/AQM both before and since it had become a WCF cost center in
2008. Since becoming a WCF cost center, the percentage of customers that was generally or
very satisfied with the timeliness of assistance remained almost constant, increasing from 45
percent to 46 percent. However, the percentage of customers that were generally or very
dissatisfied with the timeliness of assistance provided increased from 25 percent to 31 percent.
These responses indicated that customers were somewhat less satisfied with the timeliness of
assistance and information since A/LM/AQM became a WCF cost center.




                                             35
                                        UNCLASSIFIED
                                       UNCLASSIFIED

       The narrative responses OIG received from its customer survey were also mixed. Some
people provided very positive feedback. For instance, respondents stated

          “A/LM/AQM does a great job” for the bureau for which the respondent worked “and
           we believe it is well worth the 1% we pay.”
          “I find AQM very responsive and able to provide a wealth of knowledge.”
          “I have always found AQM, [particularly one branch and person], absolutely fantastic
           to work with. They are extremely prompt, willing to think creatively and provide
           valuable guidance.”
          “I would just like to express my appreciation for the assistance of my contacts in
           A/LM/AQM.”

       However, a number of respondents provided negative comments, citing issues with
timeliness, customer service, and assistance provided. For instance, respondents stated

          “The level of service has generally been quite poor. When we have shared our
           complaints with senior leaders at AQM, we were told we were wrong and that the
           contracting officer in question is actually very professional and couldn’t have done
           the things we said.”
          “I don’t understand how [the 1 percent fee] would incentivize better service when
           there is no alternative to AQM.”
          “AQM often takes quite a bit of time to respond to inquiries.”
          “A/LM/AQM has been the most difficult office to deal with…for years. Staff is
           generally unhelpful, slow to respond, not informed, and unreliable. Paying them 1%
           is a joke since that would imply we are their customer.”
          “The only real issue I have experienced is timeliness or responsiveness to questions
           or pending issues which seem to sit for a long time. One has to take the initiative to
           follow up in order to get a response.”
          “Many of the staff are not knowledgeable concerning contract procedures or
           requirements. This leads to delays in meeting deadlines.”

        Some respondents noted that service differed based on who in A/LM/AQM provided
assistance. For instance, one respondent stated, “It really depends on who the contract[ing]
officer or specialist is.” Another respondent stated, “I have found that the customer service from
A/LM/AQM depends on the contract specialist that you are working with.”

      In addition, several respondents indicated that they did not believe that service had
improved since A/LM/AQM had become a WCF cost center. For instance, customers stated

          “I have really not seen a difference on the overall impact since the change to the cost
           center. I was under the impression that the cost center would speed things up and I
           really haven’t seen that happen.”
          “Have not seen a noticeable difference since 2008.”
          “I’ve seen little or no improvement in the support provided by AQM since they went
           to a fee-for-service.”


                                            36
                                       UNCLASSIFIED
                                       UNCLASSIFIED


          “I don’t sense that there has been any change in AQM since the WCF move. AQM is
           generally responsive and timely with our requests. But I don’t see them as a highly
           customer-service oriented operation. The CO seem unapproachable, distant. The
           specialists, who can be quite helpful, change very often during the life of a contract.”

Finding C. Some Actions Were Taken To Continuously Improve Operations,
but Additional Improvements Are Needed To Accomplish Goal

        A/LM/AQM’s Business Plan included a goal to continuously improve operations
“through human capital investment and improved business processes.” The Business Plan
included three initiatives to accomplish this goal: (1) Human Resources Development, which
included recruiting, hiring, retention, and succession as well as professional development and
recognition; (2) Internal Reviews; and (3) Business Process Mapping and Procedures
Standardization. Although A/LM/AQM had taken steps to implement these initiatives, more
needs to be done in order to accomplish the goal. For instance, OIG found that A/LM/AQM had
implemented several human resources development strategies but had not developed a formal
recruiting plan or succession plan. In addition, some employees expressed confusion about the
intern program, and, to meet its training needs, A/LM/AQM relied on free courses offered by
other agencies that were not always readily available. Retaining and training current employees
is typically less costly and less disruptive than hiring new staff.

         OIG found that A/LM/AQM had performed the internal reviews included as milestones
in the Business Plan. However, A/LM/AQM did not have a process in place to periodically
review its acquisition processes, procedures, and performance. By not performing internal
reviews of these elements, A/LM/AQM may be missing opportunities to improve the
effectiveness and efficiency of its operations. OIG also found that A/LM/AQM had mapped
core procurement processes for three programs. Although A/LM/AQM had some operational
guidance available on its Intranet Web site, A/LM/AQM had not developed comprehensive
SOPs for many general procurement activities. Without specific procedures for procurement
activities, inconsistencies could occur in procurement activities, and work may not be performed
efficiently.

Some Human Resources Development Strategies Implemented, but More Could Be Done

        One of the initiatives included in A/LM/AQM’s Business Plan to accomplish its goal to
continuously improve operations was Human Resources Development, which included two
components: (1) recruiting, hiring, retention, and succession and (2) professional development
and recognition. According to the Business Plan, A/LM/AQM was “producing a cohesive and
comprehensive professional development program that begins with a targeted recruitment
strategy, incorporates continuous education, and institutes a performance-based evaluation and
recognition system.”

       OIG found that A/LM/AQM had implemented several strategies to attract and retain
employees; however, A/LM/AQM had not developed a formal recruiting plan or succession plan
and had not tracked attrition or formally determined why employees were leaving the
organization. A/LM/AQM had also implemented an intern program and had provided external

                                            37
                                       UNCLASSIFIED
                                             UNCLASSIFIED

training to address professional development. However, some employees expressed confusion
about the intern program. In addition, to meet its external training needs, A/LM/AQM relied
heavily on free courses offered by other agencies, which were not always readily available to
employees.

          A/LM/AQM had included employee surveys as a metric to assess Professional
Development and Recognition in its Business Plan but did not perform them. Employee
satisfaction surveys are a useful tool to help evaluate the success of employment and training
strategies. Most of the A/LM/AQM employees interviewed by OIG indicated that they were
satisfied overall with their jobs. Retaining and training current employees is typically less costly
and less disruptive than having to hire new staff. Because A/LM/AQM had not fully
implemented all of its strategies for human resources development, A/LM/AQM may spend
more funds on hiring procurement professionals rather than developing current staff.

        Some Strategies Implemented To Recruit, Hire, and Retain Employees but No
        Recruitment Strategy or Succession Plan

        A/LM/AQM indicated in its Business Plan that it wanted to “attract, hire, and retain
qualified acquisition professionals.” OIG found that A/LM/AQM had implemented several
strategies to attract and retain acquisition professionals. Most employees interviewed were
satisfied with their jobs, and telecommuting and alternative work schedules rated highly with
employees. However, A/LM/AQM had not developed a formal recruitment strategy or
succession plan.

        Recruitment and Hiring. One of the milestones for the recruiting, hiring, retention, and
succession component of the Human Resources Development initiative was developing a
recruitment strategy, which would assist A/LM/AQM in its hiring efforts. A/LM/AQM
management was unable to provide OIG with a formal recruitment strategy. According to one
official, A/LM/AQM’s recruitment strategy had been to place newly hired staff, depending on
the newly hired employee’s skills, where they were needed the most once they had completed the
clearance process. A/LM/AQM management believed it needed to be flexible in recruitment
because events that would impact A/LM/AQM’s workload could change quickly.

        Retention. Another milestone was the development of a telecommuting plan.
A/LM/AQM had accomplished this milestone by implementing a telecommuting program that
provides employees the opportunity to work from home one day every two weeks. In addition,
to the telecommuting plan, A/LM/AQM offered other incentives to retain employees, such as
alternative work schedules,35 and reduced rate parking. During interviews with employees, OIG
found that employee satisfaction with telecommuting and alternative work schedule programs
both rated highly, with 80 percent and 86 percent of respondents, respectively, either very or
generally satisfied.



35
  For A/LM/AQM, alternative work schedules include compressed work schedules allowing the employee to meet
the 80 hours required in a 2-week period typically by working eight 9-hour days, one 8-hour day, and taking the
tenth day off.

                                                  38
                                             UNCLASSIFIED
                                              UNCLASSIFIED

         Although the Business Plan indicated that A/LM/AQM would maintain metrics on
attrition levels, according to A/LM/AQM management, it did not formally maintain this
information. While attrition rates may not provide a clear indication of the success or failure of
A/LM/AQM’s strategies, the rates could alert management that more evaluation of its retention
strategies is needed. In addition, although A/LM/AQM management indicated that they
informally asked employees why they were leaving, A/LM/AQM did not have a process in place
to track the information obtained to enable management to determine whether changes would be
necessary to improve retention.

         Succession. An additional milestone for the recruiting, hiring, retention, and succession
component of the Human Resources Development initiative was the development of a succession
plan. A/LM/AQM management was unable to provide OIG with a formal succession plan.
According to an A/LM/AQM official, succession planning consisted of A/LM/AQM’s requests
for additional direct hire positions. Succession planning helps management plan for departures
in its staff and retention of current staff. Succession planning, which can be used to identify
critical positions or specific skills needed, assists management with determining how to meet
future needs. Requesting additional direct hire positions does not meet the intent of a succession
plan.

        Professional Development Initiatives Not Successfully Implemented

        In its Business Plan, A/LM/AQM stated that it wanted to “create, maintain, and improve
its workforce skill and competencies,” which included providing training and utilizing an
existing intern program. A/LM/AQM had an internal professional development program in
place which included mentoring. However, some employees were confused about the program
specifics. A/LM/AQM also provided external training to its professional staff to obtain their
professional certifications. However, A/LM/AQM focused its training strategy on free classes
that were not always readily available.

        Professional Development. A/LM/AQM provides professional development through an
internal intern program, which includes a mentoring component, and external training.

        Intern Program. As part of the professional development and recognition component of
the Human Resources Development initiative, the Business Plan indicated that A/LM/AQM
would develop an intern program and a mentoring program. A/LM/AQM had implemented an
“intern program,” which incorporated mentoring. A/LM/AQM’s intern program, in existence
since 2003, applied to most36 newly hired contracting professionals under the GS-12 level. An
A/LM/AQM memorandum outlines the responsibilities of the individuals involved in the intern
program and lists three major components of the program: (1) rotating assignments for staff on
an annual basis, (2) mentoring and coaching by a branch chief or team leader, and (3) training.

        The first component of the intern program, rotating assignments, allowed employees in
the intern program to annually move between A/LM/AQM’s five divisions. The rotation

36
  The Intern Program Coordinator stated that there have been some exceptions to placing a new hire into the intern
program, specifically when an individual is hired for a specific division. According to A/LM/AQM management,
there were only one or two contracting professionals to whom this exception applies.

                                                   39
                                              UNCLASSIFIED
                                                UNCLASSIFIED

exposes employees to various acquisition activities as well as to a variety of A/LM/AQM’s
customers. For the second component of the intern program, mentoring and coaching, the
branch chief or team lead assigned challenging tasks to the interns; included the intern in various
aspects of the acquisition process, such as pre-solicitation meetings and site visits; and shared
knowledge and experience in specific contracting areas. The final component, training, included
both on-the-job training as well as external training.

        The intern program was run by an Intern Program Coordinator. According to the
Coordinator, contracting professionals were made aware of the intern program when they
interviewed for a position in A/LM/AQM. As of October 2012, there were 21 interns in the
program. Typically, any contracting professional at the GS-12 grade level or below that begins
work at A/LM/AQM is placed in the intern program and remains in the program through three
rotations, which takes approximately 3 years, or when promoted to the GS-13 level. The Intern
Program Coordinator tracks the interns’ progress and ensures that rotations occur and training is
provided.

        Of the eight individuals interviewed by OIG that met the requirements for the intern
program, seven stated that they were not part of the intern program or that they thought the intern
program stopped at the GS-11 level rather than continuing to the GS-12 level. A/LM/AQM
officials stated that this confusion may have occurred because employees do not always realize
that the title of the initiative is “Intern Program.” Commonly, an intern program is one in which
college students work in an office to develop their skills and provide assistance to the office,
rather than an on-the-job training program for professional staff. In addition, some employees
with prior contracting experience may not consider themselves “interns.” OIG found that
A/LM/AQM’s “Welcome Packet” contained only one paragraph about the intern program,
instructing new employees to contact the Intern Program Coordinator for information.

        External Training. The professional development component did not include a specific
milestone for external training. However, A/OPE had developed a training curricula for the
Department’s acquisition professionals, including the contracting staff in A/LM/AQM, to
improve and maintain procurement workforce skills. The Department has a Federal Acquisition
Certification in Contracting (FAC-C) program and a CO warrant program both of which have
three levels of education, training, and experience requirements.37 Table 7 provides details of the
different certifications and the acquisition limits for employees at each level.




37
     The education and training requirements for both programs are the same.


                                                     40
                                                UNCLASSIFIED
                                          UNCLASSIFIED


       Table 7. Department’s FAC-C and Warrant Programs for COs
          FAC-C           Warrant
                                                    Dollar Threshold
         Program          Program
                                           Simplified acquisitions not to exceed
          Level I      Level I - Junior
                                                        $100,000.
                                         Simplified acquisitions up to $5,500,000
                          Level II -
          Level II                            and noncomplex contracts for
                        Intermediate
                                         noncommercial items less than $500,000.
                                         Simplified acquisitions over the Level II
         Level III    Level III - Senior
                                               thresholds up to unlimited.
       Source: OIG prepared based on information from 14FAH-3 H-330, “Required Training Courses and
       Domestic Contracting Officer Warrants for Civil Servant Personnel.”

        A/LM/AQM followed A/OPE guidance on the type of training required for contracting
professionals in order to satisfy certification requirements. Specifically, Level I for both
programs requires five mandated courses and one elective class, Level II requires three
additional mandated courses and two additional electives, and Level III requires one additional
mandated course and two additional electives. Each certification and warranting program level
has an experience requirement. Specifically, 1 year of contracting experience is required for
Level I, 2 years of contracting experience is required for Level II, and 4 years of contracting
experience is required for Level III.

        The Department’s Foreign Service Institute does not offer the contracting courses needed
for contract certifications. Therefore, A/LM/AQM relies on the Defense Acquisition University
and the Federal Acquisition Institute for employee training. Both institutions offer Department
employees free training that fulfills required core contracting courses. Although the classes are
free, there is normally a waiting list for these classes, particularly at the Defense Acquisition
University, which gives priority to defense personnel over civilian agency personnel. Required
contracting courses are also available from non-government vendors.

        In FY 2011, A/LM/AQM spent a total of approximately $53,000 on training for all of its
employees, which represents about $315 per person. An average contracting course at one
external training organization costs approximately $1,100. Based on the cost of the acquisition
courses and the amount spent for training, it is clear that not all contracting professionals
received a training course at an external vendor in FY 2011. Approximately 33 percent of
employees that OIG interviewed stated that they did not believe they received enough training,
largely because of the lack of seats available at free training venues and the lack of choices in
classes. In addition, one respondent stated that there was a perception among some employees
that certain individuals get more training than others, which the respondent attributed to a lack of
training guidelines.

        Of 139 contracting professionals listed on A/LM/AQM's staffing pattern as of July 31,
2012, 87 employees (63 percent) were warranted COs. If A/LM/AQM's contracting
professionals have experienced delays in obtaining the training needed for certification because
of lack of space in free classes, it would benefit A/LM/AQM, and the Department as a whole, to
send its uncertified contracting professionals to contracting classes offered by private companies
and thereby expand its pool of knowledgeable, certified, and, ultimately, warranted COs. Based

                                               41
                                          UNCLASSIFIED
                                                UNCLASSIFIED

on current staffing levels, it would cost approximately $150,000 each year to provide one
external training course to each contracting professional.

        Employee Survey. In its Business Plan, A/LM/AQM indicated that it would begin
performing employee surveys that A/LM/AQM management could use to evaluate its
employment and training strategies. However, A/LM/AQM management was unsure what was
intended by the Business Plan for employee surveys or whether A/LM/AQM had ever conducted
an employee survey. An employee survey can serve a variety of purposes, such as determining
the level of job satisfaction and obtaining employee opinions on a particular policy, such as
training, that can be used to make management decisions. An employee survey can help
management determine how best to address the needs of its employees.

           Impact of Issues Noted With Professional Development

         A majority of A/LM/AQM employees interviewed, approximately 75 percent, were either
very or generally satisfied with their employment at A/LM/AQM; in fact, none responded very
dissatisfied and only three respondents indicated generally dissatisfied. Consequently, the
strategies implemented by A/LM/AQM to develop its human resources have been somewhat
successful. However, A/LM/AQM could do more in order to produce a cohesive and
comprehensive professional development program. Retaining and training current staff is
typically less costly and less disruptive than hiring new staff.38 The cost of hiring a new
employee when compared to the cost of one that has left ranges from one half to five times the
individual’s salary, depending on the type of work performed. There can also be a loss in
productivity when the individual’s work is assumed by employees who already have a full
workload. The hiring process, which starts when an employee leaves, includes the costs of
background checks and training of the new employee. With its workforce being A/LM/AQM’s
most important asset, A/LM/AQM should take additional actions to successfully develop and
retain its human resources.

           Recommendation 13. OIG recommends that the Bureau of Administration, Office of
           Logistics Management, Office of Acquisitions Management, implement a process to
           track attrition rates and regularly determine employee satisfaction, which would include
           tracking concerns identified by departing employees.

           A Bureau Response: A/LM/AQM plans to work with the Bureau of Human Resources
           to “track office attrition rates” and “institut[e] an exit interview process” to “identify
           concerns” of departing employees.

           OIG Reply: OIG considers this recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation showing that A/LM/AQM has
           implemented a process to track attrition rates and to regularly determine employee
           satisfaction. Regularly determining the satisfaction level of current employees, as well as
           departing employees, would not only assist management in its decision-making process
           but would also increase employee morale.


38
     Based on articles prepared by two companies providing customer service consulting.

                                                     42
                                                UNCLASSIFIED
                                      UNCLASSIFIED

       Recommendation 14. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop a succession plan.

       A Bureau Response: The A Bureau agreed with this recommendation, stating that the
       Department’s Acquisition Human Capital Plan includes the succession plan for
       A/LM/AQM.

       OIG Reply: OIG considers this recommendation resolved. OIG assessed the
       Acquisition Human Capital Plan and found that the plan included acquisition workforce
       data and information on other initiatives such as training, recruitment, and retention
       incentives. However, the Acquisition Human Capital Plan did not identify critical
       positions or specific skills needed that would help management determine its future
       workforce needs as would be included in a well-developed succession plan. This
       recommendation can be closed when OIG reviews and accepts documentation showing
       that A/LM/AQM has developed a succession plan.

       Recommendation 15. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop a plan to improve
       its communication of its intern program to employees, such as including information in
       its Welcome Package.

       A Bureau Response: The A Bureau agreed with this recommendation, stating that
       information on the intern program would be included in the A/LM/AQM Welcome
       Package.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the Welcome Package
       has been updated to include additional information about the intern program.

       Recommendation 16. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, develop guidelines on
       training provided to contracting professionals, including annual goals for providing
       training to employees, such as the number of employees receiving courses each year.

       A Bureau Response: The A Bureau agreed with this recommendation, stating that
       A/LM/AQM “will provide guidelines to ensure that contracting professionals are aware
       of the types of training that are available.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that A/LM/AQM has
       developed guidelines that include annual training goals for its employees.

Internal Reviews Performed, but Effort Could be Expanded

       One of the initiatives included in A/LM/AQM’s Business Plan to accomplish its goal to
continuously improve operations was Internal Reviews, which included a QA Plan and the

                                           43
                                      UNCLASSIFIED
                                               UNCLASSIFIED

performance of internal reviews. OIG found that A/LM/AQM had established a QA plan and
had performed the internal reviews included as milestones in the Business Plan. In addition,
A/OPE periodically reviewed A/LM/AQM operations to ensure compliance with Federal
procurement laws and regulations. However, A/LM/AQM did not periodically review its
acquisition processes, procedures, and performance. By not performing internal reviews of these
elements, A/LM/AQM may be missing opportunities to improve the effectiveness and efficiency
of its operations.

         Quality Assurance Plan Was Developed

        In its Business Plan, A/LM/AQM indicated that one of the methods in place to
accomplish its Internal Review initiative was a QA Plan, which provided “an easy to use, ready
reference for determining the proper level of review, approval, and signature authority for
A/LM/AQM contractual documents.” (Appendix D includes an excerpt from the QA Plan.)
According to the DOSAR,39 each domestic contracting activity is required to “develop a QA plan
for review and approval of contract actions to ensure that all requirements of law, regulation,
Departmental policy, and sound procurement practices are met.” OIG found that A/LM/AQM
had developed and implemented a QA Plan. The QA Plan includes information for various types
of contract documents, including Acquisition Plans, Debarment or Suspension
Recommendations, and Invitations for Bids, as well as various types of contracts. It also
provides the reference or authority, such as the FAR or DOSAR citation, for the signatures,
reviews, or approvals.

         Internal Reviews from Business Plan Were Performed, but Additional Reviews
         Could be Done

       A/LM/AQM’s Business Plan also indicated that A/LM/AQM would perform internal
reviews, both planned and random, in order to accomplish its Internal Review initiative. The
Business Plan identified three types of internal reviews that would be performed: reviews of
high-impact procurements,40 a review of FPDS data,41 and a contract close-out42 survey. OIG
found that A/LM/AQM had performed all three of these internal reviews. Specifically,
A/LM/AQM officials annually brief A Bureau management on high-impact procurements to help
ensure effective acquisition strategies are being utilized for these procurements. In general, the

39
   DOSAR 604.71, “Procurement Quality Assurance Program.”
40
   Procurement Information Bulletin 2004-8, “High Impact Acquisition Briefings” indicates that the following
criteria should be used to identify high-impact acquisitions: value over $50 million, significance to the Department
or to the Government as a whole, expected external scrutiny, and importance to requiring bureau or office. The
Procurement Information Bulletin requires that the heads of contracting activities prepare a list of potential
high-impact acquisitions and be prepared to brief the Procurement Executive on these acquisitions.
41
   FPDS is a database of executive agencies’ procurement data that is used to measure the impact Federal
procurement has on the nation’s economy, the impact of full and open competition on the acquisition process, and
the categories of businesses that receive procurement awards. The Office of Federal Procurement Policy with the
Office of Management and Budget required the establishment of FPDS in order to collect, analyze, and disseminate
procurement data to the Congress, the executive branch, and the public.
42
   Contract closeout is the last step in the Government contracting process and starts with the CO verifying that all
work under the contract has been completed. The CO then determines whether the final payment can be made to the
contractor, settles any disputes, and ensures that all administrative actions required by the FAR and specific agency
procedures are accomplished, to include the deobligation of any remaining funds.

                                                    44
                                               UNCLASSIFIED
                                           UNCLASSIFIED

procurements selected as high-impact relate to contracts in Iraq and Afghanistan, projects in the
Bureaus of Information Resource Management or Consular Affairs, and construction contracts
but could involve any procurement that meets the criteria for high-impact procurements.

        A/LM/AQM had also implemented a process to review FPDS data. Each agency is
required to annually certify the validity and completeness of the data in FPDS. A/LM/AQM’s
Business Operations Division performs two different reviews of FPDS data. One is a weekly
review of contract actions to ensure that the data in FPDS is complete. The other review is a
monthly review of data to determine the accuracy of the data. The monthly reviews ensure that
the data in FPDS is accurate and are compiled into a quarterly report, which identifies trends.

       Additionally, A/LM/AQM performed the contract close-out survey. The close-out survey
was performed to inventory contracts eligible for close-out and was used to develop a contract
close-out database. According to an A/LM/AQM official, the Global Financial Management
System does not track or report on contracts eligible for closeout, so prior to performing the
survey, A/LM/AQM did not have a comprehensive and historical inventory of contracts.

       In addition to the internal reviews performed by A/LM/AQM staff, A/OPE also
performed periodic Procurement Operations Reviews to ensure that A/LM/AQM staff were
following the Department’s procurement policies. These reviews ensured compliance with the
FAR by acquisition staff and offered best practices, findings, and recommendations to
A/LM/AQM.43

        Although A/LM/AQM had implemented the internal reviews specifically mentioned in its
Business Plan, it did not have a formalized review process in place to regularly assess its
acquisition processes, procedures, or performance. Although A/OPE occasionally reviewed
procurement activity within A/LM/AQM, these reviews were not performed on a regular basis.
A/LM/AQM would benefit from regular, formalized, self-assessments of procurement activities.
For instance, A/LM/AQM could implement a quality control review process that would assess a
selection of acquisition activities performed within A/LM/AQM to ensure that acquisitions
complied with contracting standards, timeliness metrics44 were met, and customers were satisfied
with services provided. This type of review would highlight opportunities for A/LM/AQM to
improve operations. In addition, A/LM/AQM could periodically review the effectiveness of
operating procedures.

        OIG identified other Federal agencies whose acquisition guides included self assessments
of acquisition functions intended to evaluate processes used and identify areas needing
improvement. For example, the National Oceanic and Atmospheric Administration’s acquisition
guide included three types of reviews for its Simplified Acquisition Procedures—compliance,
efficiency, and quality. The compliance reviews ensure conformity with regulatory guidance.

43
   A/OPE’s two most recent procurement reviews were the following: A/OPE’s Jan. 17, 2012, memorandum “Joint
Procurement Management Review of the Regional Procurement Support Office (RPSO), Frankfurt, Germany and
Antwerp, Belgium” and A/OPE’s “Procurement Operation Review—U.S. Department of State, Bureau of
Administration, Logistics Management, Acquisition Management,” dated June 2010.
44
   A/LM/AQM has developed and tracks metrics related to the time to assign requisitions, the time to award
contracts by type, and the time to award grants. A/LM/AQM includes this information in a “Metrics Report.”

                                                45
                                           UNCLASSIFIED
                                             UNCLASSIFIED

The efficiency reviews are used to provide better customer service by determining whether the
most efficient procurement method is being used. The quality reviews provide management an
opportunity to identify improvements in processes such as evaluation of quotations, contract
administration, and screening for mandatory sources.

        A/LM/AQM officials stated that they believed that the QA Plan was sufficient to ensure
that procurement activities were being performed as planned and that procedures were being
followed. The officials also stated that the Integrated Logistics Management System (ILMS)45
does not allow COs to skip approvals, and COs are legally liable for the amount of the contract
that they are awarding. While these are important acquisition controls, they do not provide
feedback to management that internal procedures are working as planned, identify procedures
that could be modified to improve the efficiency of operations, or identify customer service
deficiencies. Although the reviews performed by A/OPE ensured that Federal acquisition laws
and regulations were being followed by A/LM/AQM, these reviews serve a different purpose
than an internal review or assessment of an organization’s procedures.

        Internal reviews, or self assessments, can help an organization to better align resources
with objectives and evaluate and improve the effectiveness of the organization’s processes and
procedures. By not including these types of reviews in its internal review processes,
A/LM/AQM management may be missing opportunities to improve the effectiveness or
efficiency of its operations and provide better customer service.

        Recommendation 17. OIG recommends that the Bureau of Administration, Office of
        Logistics Management, Office of Acquisitions Management, identify additional internal
        reviews that it would perform to assess procurement activity, internal processes, and
        performance and develop a plan to implement the reviews that it considers beneficial.

        A Bureau Response: The A Bureau agreed with this recommendation.

        OIG Reply: OIG considers this recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation detailing additional planned
        internal reviews, including information on how these reviews will be implemented.

Some Key Business Processes Mapped and Policies and Guidelines Available, but Standard
Operating Procedures Could Be Improved

        One of the initiatives included in A/LM/AQM’s Business Plan to accomplish its goal to
continuously improve operations was Business Process Mapping and Procedures
Standardization. Specifically, A/LM/AQM planned to map “primary business processes to
identify opportunities for process improvements” and develop SOPs “to ensure consistent service
delivery and to drive performance improvements.” The Business Plan stated that A/LM/AQM
had mapped core procurement processes for three programs. However, since developing the
Business Plan, A/LM/AQM had not mapped the procurement processes for other programs
because it believed that the three programs that had been mapped were the most significant

45
 ILMS is an information system that combines purchasing, procurement, warehousing, transportation, and property
management, and other functions, into one integrated system.

                                                  46
                                             UNCLASSIFIED
                                                UNCLASSIFIED

programs, and other processes were not sufficiently repeatable. In addition, although
A/LM/AQM had some operational guidance available on its Intranet Web site, A/LM/AQM had
not developed comprehensive SOPs for many general procurement activities. Without specific
procedures for procurement activities, inconsistencies in how the activities are performed could
occur and work may not be performed efficiently. A number of customers expressed concerns
about the consistency of the services provided by A/LM/AQM staff, which indicates that specific
SOPs would be beneficial.

           Some Business Process Mapping Performed, but More Needed

        Business process mapping refers to activities that define exactly what an entity does and
who is responsible. One of the factors included in the Business Plan to accomplish the Business
Process Mapping and Procedures Standardization initiative was that A/LM/AQM had already
mapped the core procurement processes for three Department programs to identify opportunities
to improve customer satisfaction, efficiency levels, teamwork, and accountability. Specifically,
A/LM/AQM had mapped the procurement processes for the Overseas Furniture Program, the
Local Guard Program, and Controlled Access Area Procurements. The business process map for
the Overseas Furniture Program described procurement activities for acquiring overseas office
and residential furniture and information on acquiring furniture for new embassy compounds.
The business process map for the Local Guard program included a description of responsibilities
for various parties, such as the Regional Security Officer and A/LM/AQM, for the preaward and
postaward phases. A/LM/AQM was unable to provide documentation supporting the Controlled
Access Area procurement processes mapping.

        The Business Plan’s milestones for this initiative indicated that A/LM/AQM would map
additional business processes.46 However, OIG found that A/LM/AQM had not mapped the
processes for other Department programs or procurements. An A/LM/AQM official stated that
the three business processes that had been mapped were the most significant processes and that
other business processes either were not significant enough to make it cost effective to map the
process, or the processes did not have sufficiently repeatable processes. However, OIG
identified other significant processes that it concluded may benefit from business process
mapping efforts, such as new embassy construction and grants.

           Standard Operating Procedures Not Sufficient

        The Business Plan also stated that A/LM/AQM would develop SOPs to ensure consistent
service delivery and to drive performance improvements. However, OIG found that
A/LM/AQM had not developed specific SOPs for all of its significant processes, such as
procurement planning and preparing statements of work. A/LM/AQM officials indicated that
they did not need SOPs to address general procurement activities because the FAR and DOSAR
were sufficient for their needs. A/LM/AQM officials stated that its procurement staff follow the
procurement guidelines established by the FAR, which addresses every procurement from
purchase card transactions to major procurements. In addition, A/LM/AQM officials stated that,
as discussed in Finding C: Internal Reviews Performed, but Effort Could Be Expanded, the QA
Plan provided guidelines on the approvals needed for procurement documents and includes
46
     The Business Plan did not provide details on what additional processes would be mapped.

                                                     47
                                                UNCLASSIFIED
                                      UNCLASSIFIED

references to the FAR and DOSAR requirements (see Appendix D for an excerpt from the QA
Plan).

        A/LM/AQM officials also stated that bureau staff used guidance issued by A/OPE, such
as Procurement Information Bulletins and supplements. In addition, A/LM/AQM had developed
some operating guidance that it issued via A/LM/AQM memos and maintained on its Intranet
Web site. (Appendix E includes a list of operating guidance found on A/LM/AQM’s Intranet
Web site.) For instance, A/LM/AQM had instructions for maintaining contract file
documentation and preparing justifications for other than full and open competition.
A/LM/AQM’s Intranet Web site also included other useful tools, such as flowcharts of the
acquisition and grant processes and a description of the contract close-out process.

        Although the documents provided on A/LM/AQM’s Web site would be useful for a
customer and procurement staff to understand specific components of acquisition processes, the
Web site did not contain SOPs that addressed the full scope of the procurement processes. While
guidance included in the FAR and DOSAR is essential, these are policies not SOPs. An SOP is
the detailed explanation of how a policy should be implemented. An effective SOP
communicates who will perform a task, what materials are necessary, where the task will take
place, when the task shall be performed, and how the person will execute the task.

       Without sufficient business process mapping and policies and procedures, inconsistencies
in how activities are performed could occur and work may not be performed efficiently. In
response to OIG’s customer survey, a number of customers expressed concern with the
inconsistent service provided by A/LM/AQM:

          “Each new CO that comes along changes all the processes and procedures because
           they claim the previous CO did not do things correctly…. The processes and
           procedures at AQM are personality based rather than institutionalized.”
          “Communication is poor. AQM creates policy via emails and then it changes. There
           is no consistency or communication when policy is conceived and communicated.”
          “I would like to have a clear written guideline regarding ‘[dos]’ and ‘don’ts’…”
          “AQM really need[s] to be consistent on their rules, regulations and policies.”
          “There is minimal consistency between Contracting Officers on how particular
           contracting actions are handled, requiring CORs to adapt to the particular CO.”
          “Working with AQM can be frustrating at times…. Each CO seems to have their
           own way of doing things so each time an issue comes up we have to find out what the
           CO wants.”

       Recommendation 18. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, identify significant
       procurement processes to map and develop standard operating procedures that currently
       are not included in available procedures.

       A Bureau Response: The A Bureau stated that A/LM/AQM’s Quality Assurance Plan
       “maps out the federal procurement process” and allows A/LM/AQM to be “flexible and
       nimble when responding to urgent requests.”

                                           48
                                      UNCLASSIFIED
                                       UNCLASSIFIED

       OIG Reply: OIG considers this recommendation unresolved. A/LM/AQM’s QA Plan
       details the responsibilities for reviewing, signing, and approving various types of contract
       actions. However, the plan does not include detailed procedures for processing
       contracting actions, for instance, specific documentation required and timelines. An
       effective standard operating procedure provides step-by-step instructions that allows
       employees to perform tasks consistently. A/LM/AQM’s customers noted concerns with
       the lack of consistency in procurement support. This recommendation can be closed
       when OIG reviews and accepts documentation showing that A/LM/AQM has mapped
       additional procurement processes and has developed standard operating procedures.

Finding D. Service Level Agreements Had Been Implemented With
Interested Customers
        A/LM/AQM’s Business Plan included a goal to improve performance measurement. One
of the initiatives identified to accomplish this goal was the implementation of SLAs with
A/LM/AQM’s customers. OIG found that A/LM/AQM had established SLAs with three
customers since the inception of the cost center. A/LM/AQM indicated that additional customers
were not interested in implementing SLAs. SLAs are ideal mechanisms to improve
communication and to allow customers to have input on the services that A/LM/AQM provides,
including timeframes for providing those services. By providing the opportunity for customers
to negotiate SLAs, A/LM/AQM addressed the commitment in the Business Plan.

        The Business Plan stated that “performance standards, metrics, and trends that are
meaningful to customers, stakeholders, and A/LM/AQM management, are essential to improve
the quality of acquisition and grant services.” One of the initiatives included in the Business
Plan to accomplish the performance measurement goal was implementing SLAs with customers.
A/LM/AQM’s objective for implementing SLAs was to improve “customer service and
communicate expectations by identifying current and potential services and expected volume
levels, by selecting key performance measures, and by establishing reporting and review
meetings.” An SLA is a written agreement between A/LM/AQM and the customer that outlines
mutually agreed upon performance metrics, standards, communication channels, and feedback
mechanisms. The SLAs used by A/LM/AQM list the parties involved, discuss the reports to be
provided and meetings to be held, include a provision for reviewing and updating the agreement
as needed, list the responsibilities of the parties, and include the performance indicators and
corresponding benchmarks against which A/LM/AQM’s performance would be measured.

        Since becoming a WCF cost center, A/LM/AQM had executed three SLAs. Two of the
SLAs were at the bureau level—Overseas Buildings Operations and African Affairs—and one
was with a program office, the Bureau of Diplomatic Security, International Programs
Directorate, Office of Overseas Protective Operations. A/LM/AQM management had
anticipated that SLAs would be the driver in establishing the working relationship with its
customers. However, according to A/LM/AQM officials, most customers did not want an SLA.
A/LM/AQM officials stated that A/LM/AQM had reorganized to better align with bureaus and
had embedded more staff in customers’ offices. The officials believed that these initiatives had
improved lines of communication, so customers did not consider SLAs to be necessary.


                                            49
                                       UNCLASSIFIED
                                           UNCLASSIFIED

        OIG contacted officials in three bureaus that did not have an SLA with A/LM/AQM to
determine whether these bureaus thought an SLA would be useful. Two of the three bureaus
responded to OIG’s request for information. One bureau’s administrative officer did not see the
usefulness of implementing an SLA with A/LM/AQM at this time because the bureau was
satisfied with the service from and communications with A/LM/AQM. An official from the
other bureau stated that bureau officials “found the text of the proposed agreement insufficiently
specific, especially as it regards the nature of the support [the bureau] would receive in return for
the substantial surcharge costs that were to be imposed.” Without understanding what the fee
was paying for, bureau officials did not believe an SLA would be useful. This bureau had
regular communications with A/LM/AQM, including monthly meetings and daily telephone and
email contact as needed.

       SLAs are ideal mechanisms to improve communication and to allow customers to have
input on the services that A/LM/AQM provides, including timeframes for providing those
services. Although A/LM/AQM had not implemented SLAs with all of its customers, it
addressed the commitment in the Business Plan because A/LM/AQM provided its customers the
opportunity to negotiate SLAs. Therefore, OIG is not making a recommendation related to
SLAs.

Finding E. Measuring Accomplishment of Business Plan Goals Was Not
Performed
        Although A/LM/AQM included general metrics in its Business Plan, such as customer
satisfaction and unresolved customer issues, which could be used to assess the success of
implementing the initiatives included in the plan, it had not developed a process to measure the
accomplishments of the metrics or of the initiatives or goals in the Business Plan. A/LM/AQM
officials considered the Business Plan’s goals and initiatives to be reflected in the A Bureau’s
strategic plan and the measuring of the bureau’s strategic goals to be sufficient. However, many
of the goals and initiatives included in A/LM/AQM’s Business Plan were not included in the
Bureau Strategic Plan. A/LM/AQM was tracking some metrics to assess program performance.
However, these performance metrics also generally did not tie to the goals in the Business Plan.
Without measuring its performance, A/LM/AQM cannot ensure it is making progress on its
overall objective of providing consistent and improved procurement services to the Department.

        Performance management is a systematic process of monitoring the achievements of
program activities, which includes collecting and analyzing performance data in order to track
progress toward a defined goal and then using the analyzed data to make informed decisions,
including allocating resources, for the program. Measuring performance against program goals
is an essential part of performance management. According to a Department guide,47 measuring
performance is a key tenet to integrated processes of planning, budgeting, and managing and is
necessary for a successful program.




47
  Department of State, “Managing for Results: A Program and Project Management Guidebook,” version 10.0,
June 2012.

                                                50
                                           UNCLASSIFIED
                                               UNCLASSIFIED

       A/LM/AQM developed a Business Plan for transitioning to being a WCF cost center.
This Business Plan included “short-term priorities and long-term outcomes,” including four
goals: customer service, innovative management, performance measurement, and continuous
improvement. Each of the goals had specific projects or initiatives that would be performed to
accomplish the goals and general performance metrics for each of the initiatives. Although the
Business Plan included metrics, A/LM/AQM did not have a formal process in place to track the
metrics or to measure the accomplishment of the goals or initiatives in other ways.

         A/LM/AQM management stated that the Business Plan goals were mirrored in the A
Bureau’s strategic plan, and therefore the achievement of goals would be tracked during the
strategic planning process. As shown in Table 8, based on OIG’s comparison of Business Plan
initiatives and metrics to the A Bureau’s FY 201148 strategic plan indicators and targets, OIG
found that the majority of metrics from the Business Plan were not being tracked as part of the A
Bureau’s strategic planning efforts. An A/LM/AQM official initially explained that the reason it
had not tracked the accomplishment of its Business Plan goals was because the goals would be
tracked during the strategic planning process. However, in a response to this finding, an
A/LM/AQM official stated that the “strategic vision” of the Business Plan, “which is tactical in
nature, cannot be compared to the Bureau’s strategic plan.” OIG agrees with this conclusion and
does not consider the tracking of A Bureau strategic goals to be a substitute for tracking the
initiative and metrics included in the Business Plan. A/LM/AQM should develop a process to
track the status of the goals included in the Business Plan.

Table 8. Comparison of Audited Business Plan Initiatives and Metrics to Strategic Plan
Indicators and Targets
                                                                        Strategic Plan      Strategic Plan
                         Description of
 Business Plan                                    Business Plan         Indicators that      Targets that
                         Business Plan
   Initiative                                       Metrics                Relate to           Relate to
                           Initiative
                                                                         Business Plan      Business Plan
 Implementing         Improve service and       Customer                PSS customer     80% customer
 SLAs                 communicate                satisfaction             satisfaction      satisfaction survey
                      expectations.             Signed SLAs             None             None
 Financial            Correctly balance fees    Yearly review of fee    None             None
 Analysis and         and expenditures.          structure
 Reporting
 Organizational       Ensure requisite level    Hiring rates            None             None
 Capacity             of procurement            Customer                PSS customer     80% customer
 Building             expertise and support      satisfaction             satisfaction      satisfaction survey
                      by expanding the size     Cost/Pricing            None             None
                      of the professional        Analysis
                      workforce.                Contract                None             None
                                                 Administration and
                                                 Oversight
                                                Competition             None             None
                                                Contract Closeout       None             None
 Customer and         Formal and informal       Unresolved              None             None
 Stakeholder          communication              customer issues
 Interaction          vehicles and              Response rates to       None             None
                      mechanisms to              customer

48
     The FY 2011 Bureau Strategic Plan for the A Bureau was submitted on July 7, 2009.

                                                    51
                                               UNCLASSIFIED
                                           UNCLASSIFIED

                                                                    Strategic Plan      Strategic Plan
                      Description of
 Business Plan                                Business Plan         Indicators that      Targets that
                      Business Plan
   Initiative                                   Metrics                Relate to           Relate to
                        Initiative
                                                                     Business Plan      Business Plan
                   facilitate ongoing        satisfaction survey
                   dialogue.                Usage rates             None             None
                                            Customer                PSS customer     80% customer
                                             satisfaction             satisfaction      satisfaction survey
 Human             Produce professional     Vacant full time        None             None
 Resources         development program.      equivalent positions                      
 Development                                Attrition Levels          None           None
                                            Training                  None           None
                                            Performance System        None           None
                                            Employee Survey           None           None
 Business          Map primary business     SOPs and Process          None           None
 Process           processes and develop     Maps
 Mapping and       SOPs.
 Procedures
 Standardization
 Internal          Perform planned and    Contract                None               None
 Reviews           random internal         Administration/
                   reviews.                Oversight
                                          Competition             None               None
                                          State First             None               None
Source: OIG comparison of A/LM/AQM’s Business Plan’s initiatives and metrics to A Bureau’s FY 2011 Bureau
Strategic Plan’s indicators and targets.

        In addition to the Bureau Strategic Plan, A/LM/AQM had also developed metrics to track
program performance, which were based on information from other Federal agencies performing
similar procurements. As with the A Bureau’s FY 2011 strategic plan, the Business Plan goals
do not generally link to the performance metrics that A/LM/AQM tracks. The program
performance metrics track the amount of time to assign procurement requests and the amount of
time to award procurements for several different types of contracts and for grants. The
performance metrics also include a section for reporting customer satisfaction, which was based
on the customer satisfaction surveys that had been performed.

        For a program to be successful, measuring the status of strategies to achieve the
program’s goals is crucial. Without measuring its performance, A/LM/AQM cannot ensure it is
making progress on its overall objective of providing consistent and improved procurement
services to the Department. The Business Plan was essentially a commitment made to customers
on how A/LM/AQM would use fees collected. As such, it is essential for A/LM/AQM to
measure and report on how it accomplishes these goals. If the Business Plan no longer reflects
current goals, initiatives, or metrics, the Business Plan should be updated and reissued.

        Recommendation 19. OIG recommends that the Bureau of Administration, Office of
        Logistics Management, Office of Acquisitions Management (A/LM/AQM), develop a
        process to formally measure and report on its accomplishment of the Business Plan goals.
        A/LM/AQM should refine or update the goals as needed.



                                                52
                                           UNCLASSIFIED
                               UNCLASSIFIED

A Bureau Response: The A Bureau agreed with this recommendation, stating that
accomplishments will be reported to the Deputy Assistant Secretary for the A Bureau’s
Office of Logistics Management.

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts the initial report by A/LM/AQM that measures the
accomplishment of its Business Plan goals.




                                    53
                               UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Bureau of Administration, in coordination with
the Bureau of Budget and Planning, create a separate point limitation within the Working Capital
Fund for the Procurement Shared Services service center.

Recommendation 2. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop and implement a plan for how it will
use its portion of the available Working Capital Fund carryover to either implement its Business
Plan goals or to improve the efficiency and effectiveness of contract monitoring.

Recommendation 3. OIG recommends that the Bureau of Administration develop and
document a methodology for calculating the procurement-service fee, including a process to
consider future program costs and the timeframe for periodically reassessing the fee.

Recommendation 4. OIG recommends that the Bureau of Administration reassess the amount
of the fee to ensure that it is sufficient and supportable. The results of the reassessment should
be made available to customers.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop and implement a formal process to
obtain feedback from customers that would include providing customers information on the
results of the effort including specific plans on how concerns would be addressed.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop and implement a plan of action to
inform customers of the services that it provides, and the benefits of using these services,
including enhancing it Intranet Web site.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), develop a formal methodology
to identify customers who want and whom A/LM/AQM determines would benefit from on-site
procurement staff.

Recommendation 8. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), take action to provide on-site
procurement staff to bureaus and offices that A/LM/AQM determines would benefit from this
practice.

Recommendation 9. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop a 3-year staffing plan that identifies
the number of staff needed and the required mix of staff, based on expectations of contracting
needs, including contract oversight responsibilities.

Recommendation 10. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), revise the performance

                                             54
                                        UNCLASSIFIED
                                       UNCLASSIFIED

standards of its employees to include additional standards related to customer service.
A/LM/AQM should consult with customers on their needs and develop these additional
standards accordingly.

Recommendation 11. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop a mandatory customer service
training curriculum for its employees.

Recommendation 12. OIG recommends that the Bureau of Administration, Office of Logistics
Management, develop and implement a plan to ensure that customers are aware of the Customer
Advocate position.

Recommendation 13. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, implement a process to track attrition rates
and regularly determine employee satisfaction, which would include tracking concerns identified
by departing employees.

Recommendation 14. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop a succession plan.

Recommendation 15. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop a plan to improve its communication
of its intern program to employees, such as including information in its Welcome Package.

Recommendation 16. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, develop guidelines on training provided to
contracting professionals, including annual goals for providing training to employees, such as the
number of employees receiving courses each year.

Recommendation 17. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, identify additional internal reviews that it
would perform to assess procurement activity, internal processes, and performance and develop a
plan to implement the reviews that it considers beneficial.

Recommendation 18. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, identify significant procurement processes to
map and develop standard operating procedures that currently are not included in available
procedures.

Recommendation 19. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), develop a process to formally
measure and report on its accomplishment of the Business Plan goals. A/LM/AQM should
refine or update the goals as needed.




                                            55
                                       UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                        Appendix A
                                   Scope and Methodology

        The overall objective of this audit was to determine whether the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), had applied procurement fee collections to implement key procurement-activity
goals included in its Business Plan. Specifically, the Office of Inspector General (OIG) assessed
the accomplishment of initiatives included in A/LM/AQM’s procurement services Business Plan
for three goals—performance measurement, customer service, and continuous improvement.

       OIG conducted fieldwork for this audit from July 2012 to November 2012 at the Bureaus
of Administration (A Bureau), Budget and Planning, Overseas Buildings Operations, Diplomatic
Security, International Narcotics and Law Enforcement Affairs, African Affairs, and Western
Hemisphere Affairs. OIG limited its audit work to domestic procurement transactions; OIG did
not consider procurement activities performed at overseas posts and the Regional Procurement
Service Offices. OIG considered procurement activities from FY 2008, when A/LM/AQM
became a WCF cost center, through FY 2011.

        OIG’s objective was to determine whether A/LM/AQM had applied procurement fee
collections to implement key procurement activity goals. When it transitioned to a cost center in
2008, A/LM/AQM developed a 3-year Business Plan. A/LM/AQM had not updated this
Business Plan, so the plan was still in effect at the time of this audit. The Business Plan set forth
four key goals:

          Performance Measurement.
          Customer Service.
          Continuous Improvement.
          Innovative Management.

        However, OIG limited its scope to assessing compliance with the performance
measurement, customer service, and continuous improvement goals. The fourth goal, innovative
management, covered processes to strategically source certain products through bulk purchasing
and standardizing the local guard program contracts. Many of the components for this goal
related to overseas activities, for instance addressing issues related to the local guard program,
overseas furniture, and purchasing pharmaceuticals, which were not included in the scope of this
audit. Therefore, OIG determined that it would not include this goal in its overall assessment of
A/LM/AQM’s implementation of its Business Plan goals.

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objectives. OIG believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objectives.

      To obtain background for the audit, OIG researched and reviewed public laws,
Government Accountability Office reports, the Department’s Foreign Affairs Manual and

                                              56
                                         UNCLASSIFIED
                                        UNCLASSIFIED

Foreign Affairs Handbook, Department cables, the A Bureau’s strategic plans, budget-related
documents, financial information, documents explaining the justification for A/LM/AQM to
become a WCF cost center, including A/LM/AQM’s goals, and other guidance and reports.

       During the audit, OIG determined to what extent the Department had expended the fees
collected for procurement initiatives, limited the use of the funds to A/LM/AQM activities, and
regularly reassessed the amount of the fee. Specifically, OIG obtained and analyzed
A/LM/AQM financial data and performed a cash flow analysis of the Procurement Shared
Services service center from FY 2008 through FY 2011. OIG also gained an understanding of
and analyzed the process used to establish the fee amount.

        OIG also obtained information on A/LM/AQM staffing levels and analyzed the workload
per person during that time period. OIG gained an understanding of the types of services
provided by A/LM/AQM from FY 2007 through FY 2011 and assessed A/LM/AQM’s initiative
to locate its staff in some customers’ office space. OIG obtained and assessed documentation
relating to the customer satisfaction surveys performed by A/LM/AQM, and OIG conducted its
own customer satisfaction survey. (Information on the sampling methodology is provided in the
section “Detailed Sampling Methodology” in this appendix.) OIG also obtained information on
and feedback about the Customer Service Advisory Board.

      In order to determine to what extent A/LM/AQM had improved human capital
investment and business processes, OIG gained an understanding of A/LM/AQM’s staffing
methodology and obtained details on the types of internal reviews of A/LM/AQM being
performed and reviewed copies of recent internal review reports. OIG also obtained available
documentation on business process mapping and gained an understanding of how A/LM/AQM
developed standard operating procedures and assessed the procedures that were available.

       OIG also determined whether A/LM/AQM had implemented service level agreements
with its customers and assessed the content of the agreements that were in place. OIG also
determined whether customers were satisfied with service level agreements and assessed the
methodology used by A/LM/AQM to track the results of goals included in the agreements.

Prior OIG Reports

         In its review of internal OIG audit and inspection reports relating to the procurement fee,
OIG identified numerous OIG reports issued between January 2009 and August 2012 that
included recommendations to A/LM/AQM. The report section Missed Opportunities to Improve
Procurement Activities discusses findings from some of these reports, and Appendix F includes a
list of the reports identified.

Use of Computer-Processed Data

        The audit team used computer-processed data from the Department’s Global Financial
Management System during this audit. OIG obtained financial data on the Procurement Shared
Services service center’s expenditures and revenue from FY 2008 to FY 2011. OIG did not test
the information provided to ensure it was accurate. The Global Financial Management System,

                                             57
                                        UNCLASSIFIED
                                       UNCLASSIFIED

the Department’s domestic accounting system, is used to prepare the annual financial statements,
which are audited. In addition, OIG performed some limited analytical procedures of the
information to assess the data. OIG determined that, based on how the data would be used in the
report, the assurances provided by the annual financial statement audit, and the analytical
procedures performed, that the data was sufficiently reliable for its needs.

        The audit team also used computer-processed data from the A Bureau’s Funds Tracker
system, which is an A Bureau application that provides detailed financial information related to
the WCF to obtain information on the revenues and expenses of other WCF service or cost
centers. OIG did not test the information provided to ensure it was accurate. Based on how the
data was used in the audit, OIG concluded that the data was sufficient for its needs.

        OIG obtained A/LM/AQM’s contracting data for FYs 2007–2011, which was generated
by Comprizon and Procurement Desktop for the beginning of FY 2007 and by the Department’s
Global Financial Management System after May 2007. Comprizon and Procurement Desktop
were the procurement systems used prior to the implementation of Global Financial Management
System. OIG also obtained copies of the Department’s Staffing Patterns for FYs 2007–2012
which are the Department’s official staffing documents and were produced by the Department’s
Bureau of Human Resources. OIG used this data to determine the level of procurement work
performed per contracting professional for FYs 2007–2011. Other than the work described, OIG
did not audit the data from these systems.

        Any issues noted with the computer-processed data used are reported in the Audit Results
section of the report.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG identified control deficiencies that led to its findings related to
customer service, performance measurement, and continuous improvement. Work performed on
internal controls during the audit is detailed in the Audit Results section of the report.

Detailed Sampling Methodology

       OIG’s sampling objectives were to determine the level of satisfaction of A/LM/AQM’s

          customers with A/LM/AQM’s efforts to improve customer service, and
          employees with management’s efforts to improve human capital investments.

       Customer Satisfaction

        OIG used a customer satisfaction survey to obtain feedback on customer satisfaction. To
select the employees to survey, OIG started with a list of contracting officer’s representatives
(COR), dated August 16, 2012, provided by the Bureau of Administration, Office of the
Procurement Executive (A/OPE). The scope of the audit was limited to domestic procurement
activity. Any employee identified on the list provided by A/OPE as being located overseas was

                                            58
                                       UNCLASSIFIED
                                              UNCLASSIFIED

eliminated. OIG also removed all OIG and A/LM/AQM employees from the list of CORs to
maintain OIG independence and limit potential bias. The list of CORs provided by A/OPE
included 1,816 names. OIG excluded 651 CORs because they were listed as being overseas or
worked for either OIG or A/LM/AQM. Therefore, 1,165 people remained for survey
participation.

        OIG also selected the Department’s Executive Directors to participate in the customer
satisfaction survey. OIG obtained a list of Executive Directors from the Department’s Intranet
Web site as of September 2012, which consisted of 29 names.1 OIG’s Executive Director was
eliminated from the list. OIG also eliminated three of the Executive Directors because they were
included in the list of CORs provided by A/OPE. In total, OIG excluded four people; therefore,
25 additional people remained for survey participation.

        OIG chose to distribute the customer satisfaction survey via email. However, OIG was
unable to find some of the people in the Department’s Global Address List. Other people were
identified as currently being assigned overseas. Many people in the Department rotate to new
assignments and others leave the Department. OIG distributed the customer satisfaction survey
to 883 employees from A/OPE’s list of CORs and 25 additional Executive Directors.

         After the survey was distributed, two bureaus contacted OIG to indicate that some
domestic CORs had not received the survey. OIG confirmed that these people were not included
in the list of CORs provided by A/OPE. To ensure OIG received feedback from as many CORs
as possible, it distributed the survey to an additional 16 people identified by these two bureaus.
Therefore, the survey was ultimately distributed to a total of 924 people. A total of 307 people
responded to the survey, a response rate of approximately 33 percent. (Appendix B provides the
survey and the survey results.)

Employee Satisfaction

        OIG selected a sample of A/LM/AQM employees to interview to determine employee
satisfaction with working in A/LM/AQM. To select employees, OIG used A/LM/AQM’s
staffing pattern with data as of July 31, 2012. The staffing pattern included a total of 170
employees. OIG did not include supervisors or clerks in the sample, as it wanted to target staff
that perform ongoing procurement operations. After these categories were excluded, a total of
149 employees remained. OIG stratified the universe of remaining employees from the staffing
pattern into four categories:

            Contracting Professionals at or above the Grade 13 level, but non-supervisory.
            Contracting Professionals at or below the Grade 12 level.
            Grants Management Specialists.
            Other staff members, including Logistics Management Specialists, Management
             Analysts, Computer Assistants, Purchasing Agents, and Student Trainees.



1
 The list included 33 names, however three individuals were listed twice because they were responsible for two
separate bureaus and one individual was not an executive director.

                                                   59
                                              UNCLASSIFIED
                                           UNCLASSIFIED

        OIG stratified the groups in this manner to obtain feedback from the different
representative groups. Particularly, Contracting Professionals at or below the GS-12 level should
be included in A/LM/AQM’s intern program, which is a human capital initiative, so OIG wanted
to ensure that it obtained feedback from these employees. Employees in the Other Staff category
also perform some aspects of procurement activities or assist to prepare reports, so OIG wanted
to obtain feedback from this group as well.

         OIG randomly selected one employee from each of the four categories listed above, for
each office within A/LM/AQM, which had 21 offices identified in its staffing plan. Not every
office had employees in each of the four categories. In total, OIG selected a sample of 47
employees to interview to determine employee satisfaction. Not all employees that were
contacted chose to participate, and others could not be reached. Consequently, OIG interviewed
a total of 39 employees. Table 1 provides information on the number of employees selected and
interviewed by category. For information on the results of the interviews, see Finding C: Some
Human Resources Development Strategies Implemented, but More Could Be Done.

  Table 1. Number of Employees Selected by Category for Interviews
                    Employee Category                              Number of               Number of
                                                               Employees Selected          Employees
                                                                 for Interviews           Interviewed
   Contracting Professionals at or above the Grade 13
   level, non-supervisory                                               20                    20
   Contracting Professionals at or below the Grade 12
   level                                                                14                    8
   Grants Management Specialist                                         1                      1
   Other                                                                12                    10
   Total                                                                47                    39
  Source: OIG prepared based on results of its random sampling and employee interviews.




                                                60
                                           UNCLASSIFIED
                                      UNCLASSIFIED

                                                                                    Appendix B
                                       United States Department of State
                                       and the Broadcasting Board of
                                       Governors

                                       Office of Inspector General




                           Customer Satisfaction Survey
The Office of Inspector General (OIG), Office of Audits, is conducting a survey of A/LM/AQM
customers’ level of satisfaction with the services provided by A/LM/AQM since its conversion
to a cost center of the Working Capital Fund (WCF) in February 2008. The objective of the
survey is to determine whether the services provided by A/LM/AQM for the fee charged (1%
surcharge) are in-line with the services promised by A/LM/AQM. This survey is intended as an
evaluation tool. OIG will not issue recommendations based solely on the responses to this
questionnaire.

OIG will provide a summary of the responses to the survey to A/LM/AQM officials. OIG will
not provide the names of individuals responding or any other identifying information.

This questionnaire should take approximately 15 minutes to complete. Please do so by marking
the desired choice or typing in a response when required. Space has been provided at the end of
the questionnaire for any additional comments you might want to make.

OIG Notes:

   (1) Responses for all questions are first expressed in raw totals enclosed by parenthesis
       followed by percentages, unless specified otherwise.
   (2) The number of responses to each question is not identical because respondents did not
       answer all questions.
   (3) Percentages may not add to 100 due to rounding.
   (4) For Question 7, asterisks in the last column indicate that “Not applicable” responses
       were filtered from the data for clarity of the analysis and presentation. Only respondents
       actually providing assessments were included in calculating the rates of satisfaction and
       dissatisfaction.




                                           61
                                      UNCLASSIFIED
                                      UNCLASSIFIED



1. Are you a Contracting Officer’s Representative (COR), Government Technical Monitor
   (GTM), or Executive Director? (please check one)

   1.   [(210) 68%] COR ----------------> CONTINUE.
   2.   [(58) 19%] GTM ----------------> CONTINUE.
   3.   [(7) 2%] Executive Director ----------------> GO TO QUESTION 3.
   4.   [(6) 2%] I am both and Executive Director and a COR or GTM -----------> CONTINUE.
   5.   [(26) 8%] I am not a COR or GTM -----------------> GO TO QUESTION 17.

2. Are you currently performing COR or GTM duties for an active contract awarded by
   A/LM/AQM?

   1. [(219) 80%] Yes ----------------> CONTINUE.
   2. [(55) 20%] No -----------------> GO TO QUESTION 17.

3. Does your office or bureau have any A/LM/AQM contracting officers or contract specialists
   on site (i.e., embedded)?

   1. [(104) 46%] Yes ----------------> GO TO QUESTION 5.
   2. [(122) 54%] No -----------------> CONTINUE.

4. Would you like any A/LM/AQM contracting officers or contract specialists assigned on-site
   to your office or bureau (i.e., embedded)?

   1. [(51) 42%] Yes ----------------> GO TO QUESTION 6.
   2. [(71) 58%] No -----------------> GO TO QUESTION 6.

5. Please provide the number of A/LM/AQM contracting officers and contractor specialists that
   your bureau or office has on site (i.e., embedded).

        Total number of A/LM/AQM contracting officers and contract specialists on site
        ______________

   Responses averaged 10 on-site contracting officers and contract specialists.

   PLEASE REMEMBER TO CONSIDER THE SERVICES PROVIDED BY THE
A/LM/AQM CONTRACTING OFFICERS OR CONTRACT SPECIALISTS ASSIGNED
ON SITE TO YOUR OFFICE (I.E., EMBEDDED) AS WELL AS STAFF LOCATED IN
 A/LM/AQM’S OFFICE WHEN RESPONDING TO ALL QUESTIONS REGARDING
               THE SERVICES PROVIDED BY A/LM/AQM.




                                           62
                                      UNCLASSIFIED
                                         UNCLASSIFIED

6. Please indicate whether you are aware of the following services provided by A/LM/AQM.


                                                    Yes                     No
  1.    Assists with procurement planning           [(162) 72%]             [(64) 28%]
  2.    Performs contract administration            [(197) 87%]             [(29) 13%]
  3.    Performs contract negotiations              [(199) 88%]             [(27) 12%]
  4.    Assists with and reviews statements of      [(183) 81%]             [(43) 19%]
        work
  5.    Assists with cost and pricing support       [(153) 68%]             [(73) 32%]
  6.    Assists in evaluation coordination          [(173) 77%]             [(53) 23%]
  7.    Assists in contract terminations            [(204) 90%]             [(22) 10%]
  8.    Assists with claim services                 [(187) 83%]             [(39) 17%]
  9.    Assists with managing protests of           [(211) 93%]             [(15) 7%]
        contracts


7. For every listed service that you have used, how dissatisfied or satisfied were you, in general, with
   the service provided by A/LM/AQM? (Check one box in each row; choose not applicable only if
   you have never used the service.)


                                                        As                                        Not
                             Very      Generally     satisfied    Generally         Very       applicable/
                           satisfied    satisfied      as not    dissatisfied   dissatisfied   never used
1. Assists with            [(32)       [(38)         [(27)       [(7) 6%]       [(9) 8%]            *
procurement planning       28%]        34%]          24%]
2. Performs contract       [(24)       [(35)         [(36)       [(8) 7%]       [(12) 10%]         *
administration             21%]        30%]          31%]
3. Performs contract       [(32)       [(41)         [(30)       [(8) 6%]       [(14) 11%]         *
negotiations               26%]        33%]          24%]
4. Assists with and        [(38)       [(56)         [(40)       [(24) 13%]     [(24) 13%]         *
reviews statements of      21%]        31%]          22%]
work
5. Assists with cost and   [(32)       [(46)         [(38)       [(27) 16%]     [(23) 14%]         *
pricing support            19%]        28%]          23%]
6. Assists in evaluation   [(37)       [(55)         [(43)       [(26) 14%]     [(28) 15%]         *
coordination               20%]        29%]          23%]
7. Assists in contract     [(36)       [(68)         [(35)       [(21) 12%]     [(21) 12%]         *
terminations               20%]        38%]          19%]
8. Assists with claim      [(39)       [(69)         [(37)       [(28) 15%]     [(20) 10%]         *
services                   20%]        36%]          19%]
9. Assists with managing   [(31)       [(43)         [(34)       [(29) 18%]     [(24) 15%]         *
protests of contracts      19%]        27%]          21%]

                                              63
                                         UNCLASSIFIED
                                        UNCLASSIFIED

8. Have you ever contacted A/LM/AQM for assistance or information since it became a WCF
   cost center in February 2008, including any A/LM/AQM contracting officers or specialists
   that may be working on-site in your office or bureau (i.e., embedded)?

   1. [(175) 77%] Yes ----------------> CONTINUE TO QUESTION 9.
   2. [(51) 23%] No -----------------> GO TO QUESTION 12.

9. On average, about how many times per year do you contact A/LM/AQM?

   ______________ times per year

Responses averaged 63 times per year.

10. Generally, to what extent, if at all, have you found the assistance or information provided by
    A/LM/AQM useful since it became a WCF cost center in February 2008? (Please check
    one.)

   1.   [(17) 10%] Little or no use
   2.   [(37) 21%] Some use
   3.   [(45) 26%] Moderate use
   4.   [(60) 34%] Great use
   5.   [(16) 9%] Very great use

11. Generally, how dissatisfied or satisfied have you been with the timeliness of the assistance or
    information provided by A/LM/AQM since it became a WCF cost center in February 2008?
    (Please check one.)

   1.   [(21) 12%] Very dissatisfied
   2.   [(33) 19%] Generally dissatisfied
   3.   [(40) 23%] As satisfied as not
   4.   [(55) 31%] Generally satisfied
   5.   [(26) 15%] Very satisfied

12. Are you aware that A/LM has a Customer Advocate to who you can contact if you have an
    unresolved issue with A/LM/AQM’s services?

   1. [(37) 16%] Yes
   2. [(189) 84%] No

13. Were you a COR, GTM, or Executive Director at the Department of State before
    A/LM/AQM became a WCF cost center in February 2008?

   1. [(114) 50%] Yes ----------------> CONTINUE TO QUESTION 14.
   2. [(112) 50%] No -----------------> GO TO QUESTION 17.



                                             64
                                        UNCLASSIFIED
                                        UNCLASSIFIED

14. Did you ever contact A/LM/AQM for assistance or information before it became a WCF cost
    center in February 2008?

   1. [(93) 82%] Yes ----------------> CONTINUE TO QUESTION 15.
   2. [(21) 18%] No -----------------> GO TO QUESTION 17.

15. Generally, to what extent, if at all, did you find the assistance or information provided by
    A/LM/AQM useful before it became a WCF cost center in February 2008? (Please check
    one.)

   1.   [(5) 5%] Little or no use
   2.   [(19) 20%] Some use
   3.   [(33) 35%] Moderate use
   4.   [(30) 32%] Great use
   5.   [(6) 6%] Very great use

16. Generally, how dissatisfied or satisfied have you been with the timeliness of the assistance or
    information provided by A/LM/AQM before it became a WCF cost center in February 2008?
    (Please check one.)

   1.   [(5) 5%] Very dissatisfied
   2.   [(19) 20%] Generally dissatisfied
   3.   [(27) 29%] As satisfied as not
   4.   [(33) 35%] Generally satisfied
   5.   [(9) 10%] Very satisfied

17. Please use the space below to elaborate on any of your responses, provide any information
    related to the customer service you have received, or make suggestions on how A/LM/AQM
    could improve customer satisfaction.

   191 respondents provided additional information.




                                             65
                                        UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                 Appendix C

   QUESTIONS FROM THE 2010 A/LM/AQM CUSTOMER SURVEY

SECTION 1: ADMINISTRATION AND RESPONSE RATE

  1) Please identify your office.

SECTION 2: RESULTS

  2) How long have you used A/LM acquisition services?

  3) Please identify your role in the procurement process.

  4) To what extent do you agree with the following aspects of customer service provided by
  A/LM acquisition personnel - the procurement specialists and contracting officers you work
  with?

                  Strongly Agree
                  Agree
                  Sometimes Agree/ Sometimes Disagree
                  Disagree
                  Strongly Disagree
                  Not Applicable


     4a) Provide requested acquisition services in a time frame that meets my needs
     4b) Ensure that the duration between my request and receipt of commodity is acceptable
     4c) Provide services at the time they promise to do so
     4d) Reaching the right person who has the needed information is easy
     4e) Provide timely resolution of my problems
     4f) Highly responsive to emergency, urgent, and priority requests
     4g) Ensure that the end commodity meets my initial request
     4h) Highly knowledgeable and skilled
     4i) Treat me courteously and professionally
     4j) Provide consistent guidance and procedures regardless of whom I talk with in the
     office
     4k) Overall, provide outstanding acquisition support and assistance




                                          66
                                     UNCLASSIFIED
                                   UNCLASSIFIED



5) To what extent are you satisfied with the A/LM acquisition products listed below?

               Very Satisfied
               Satisfied
               Sometimes Satisfied/ Sometimes Dissatisfied
               Dissatisfied
               Very Dissatisfied
               Not Applicable

   5a) New simplified acquisitions under $100,000, including delivery or task orders
   5b) New contract, BPA, delivery or task order over $100,000
   5c) New construction contract over $100,000, including pre-qualification of vendors
   5d) Grants and cooperative agreements




                                        67
                                   UNCLASSIFIED
                                                                                         UNCLASSIFIED
                                                                                                                                                                   Appendix D
                                                             EXCERPT OF QUALITY ASSURANCE PLAN
                                                              A/LM
                                                              A/LM/AQ
                                                                   /AQM
                                                                      M Qua
                                                                         uality
                                                                            lity Ass
                                                                                 Assura
                                                                                     urance
                                                                                        nce Pla
                                                                                            Plan (2
                                                                                                 (2/3
                                                                                                    /3/1
                                                                                                      /111)

                   DOCUMENT                                   REVIEWS                SIGNS             APPROVES                       REFERENCE/                 REMARKS
                                                                                                                                      AUTHORITY
 A/SDBU REVIEW                                                                                       A/SDBU                                                Use DS-1910 Review
    • all new acquisitions over simplified                                                                                                                 Document
       acquisition threshold
    • all GSA schedule or GWACS orders                                                                                                                     Setaside
       over $2,000,000                                                                                                                                     recommendations
    • if activity performed by a Small
       Business is to be transferred to
       another agency via IAA.

                                                                                                                                                           As a part of annual
 ACQUISITION PLANS                                                                                                            FAR 7.1, DOSAR 607.1         acquisition planning, the
                                                                                                                                                           HCA will recommend a
 ACQUISITION PLANS, HIGH IMPACT                            A/OPE                  A/OPE and                                   A/OPE PIB 2004-8             selection of transactions
                                                                                  HCA                                                                      meeting criteria of PIB
                                                                                                                                                           2004-8 for joint selection
                                                                                                                                                           with A/OPE for year-long
                                                                                                                                                           tracking and consultation.
 APPROVAL OF SOLICITATIONS,
 CONTRACTS AND MODIFICATIONS:

   Up to $1 million                                        CO                     CO                 CO

   Over $1 million up to $5 million                        Branch Chief           CO                 Branch Chief or          DOSAR 604.71(c)              May not be redelegated
                                                           L/BA                                      RPSO Dir/Deputy
                                                                                                                                                           HCA may require
   Over $5 million up to $10 million                       Branch Chief           CO                 Division Chief or        DOSAR 604.71(c)              independent review(s) on
                                                           L/BA                                      RPSO Director                                         a case by case basis

   Over $10 million                                        Branch Chief           CO                 HCA - for                DOSAR 604.71(c)
                                                           Division Chief                            solicitations and
                                                           L/BA                                      contracts
                                                                                                     Division Chief - for
                                                                                                     modifications
 * Throughout this document,
     1. “Level above CO” reviews are waived for RPSOs. No approvals are waived.
     2. RPSO Director or Deputy Director are = Division Director review/approval requirements, unless otherwise noted.
     3. Branch Chief = Team Leader and/or Independent GS-14, with appropriate warrant, when designated specified authority by the cognizant Division Chief.
     4. HCA = AQM Director unless otherwise specified.

Obtained on December 20, 2012, from A/LM/AQM’s Intranet Web site, http://lm.a.state.gov/AQM/Memorandums/QA%20plan%202%203%202011.pdf (pp. 1, 3, 10, 12).
                                                                                              68
                                                                                         UNCLASSIFIED
                                                                        UNCLASSIFIED
                                                                                                                               Appendix D
                                                  A/LM/AQM Quality Assurance Plan (2/3/11)

               DOCUMENT                             REVIEWS          SIGNS        APPROVES                REFERENCE/           REMARKS
                                                                                                          AUTHORITY

                                                                                                                          Need memo to file to
COMMERCIAL COMMODITY PURCHASES                    n/a              CO            Division Director   AQM Memo 09-02       document rationale if
outside of FEDBID                                                                                                         FEDBID is not used for
                                                                                                                          non-complex
                                                                                                                          commodities.
COMMUNICATIONS WITH OFFERORS                      Branch Chief     CO            L/BA                AQM Memo 10-09       Submit plan for
(over $10 million, including IDIQs and IDIQ                                                                               conversations in writing
task orders)                                                                                                              to L/BA for clearance.


CONGRESSIONAL NOTICE                              HCA              H–                                DOSAR 605.303        Process chart on BOD
(over $10 million)                                                 Legislative                                            webpage
                                                                   Affairs                                                http://lm.a.state.gov/ind
                                                                                                                          ex.cfm?fa=user_retriev
                                                                                                                          e_file&file_ID=1770


CONTINGENT FEES –                                 Branch Chief     CO            HCA                 FAR 3.405(b)         Forward copy of
MISREPRESENTATIONS or VIOLATIONS                  Division Chief                                     DOSAR 603.405(a)     decision to OPE
                                                  L/BA

CONTRACT AWARD, see Approvals, page 1

CONTRACT TYPE: Each contract file shall                                                              FAR 16.103(d):
include documentation to show why the
particular contract type was selected.
Findings and Determinations required:

1. Time and Materials or Labor Hour                                CO            Branch Chief        FAR 16.601(c)

2. Fixed Price with Economic Price
   Adjustment Based on Cost Indexes of            Branch Chief     CO            HCA                 FAR 16.601(c)
   Labor or Material

3. Firm Fixed Price, Level of Effort, Term over
   $150,000                                       Branch Chief     CO            HCA                       FAR 16.207-3


                                                                             69
                                                                        UNCLASSIFIED
                                                                 UNCLASSIFIED
                                                                                                                          Appendix D

                                           A/LM/AQM Quality Assurance Plan (2/3/11)

               DOCUMENT                      REVIEWS          SIGNS           APPROVES                REFERENCE/         REMARKS
                                                                                                      AUTHORITY

OVERTIME PREMIUMS, Authorization of                         CO               Division Chief      FAR 22.103-4
                                                                             or RPSO Director

                                                                                                                    May be a standalone
PERIOD OF PERFORMANCE:                                                                           FAR 17.204(e)      D&F or combined with
                                           Branch Chief                      A/OPE               FAR 22.1002-1      J&A for other than full
1. Exceeding 5 years                       Division Chief                                        DOSAR 617.204(e)   and open. Note that
                                           HCA                                                                      A/OPE approval is
                                                                                                                    required regardless of $
                                                                                                                    amount unless
                                                                                                                    extension is made
                                                                                                                    under 52.217-8 Option
                                                                                                                    to Extend Services.
2. Over one year for contract awarded as   Branch Chief     Tech/Rqmts       A/OPE               FAR 6.302-2        Effective 10/13/09 for
   unusual and compelling urgency          Division Chief   CO                                                      acquisitions over
                                           L/BA             HCA                                                     simplified acq. level.
                                           AQM -            Comp Adv.
                                           Comp.Adv.
PRECONTRACT COSTS –
Advance Agreements for                     Branch Chief     Division Chief   Division Chief      FAR 31.109
                                           L/BA                                                  FAR 31.205-32
PRICE NEGOTIATION MEMORANDA
NEGOTIATION MEMORANDUM, OR
PROCUREMENT SUMMARY:

 Up to $1 million                          CO               CO               CO
 Over $1 million up to $5 million          Branch Chief     CO               Branch Chief or
                                                                             RPSO Director/
                                                                             Deputy
 Over $5 million up to $10 million         Branch Chief     CO               Division Chief or
                                                                             RPSO Director
 Over $10 million                          Branch Chief     CO               Division Chief or
                                           Division Chief                    RPSO Director

 Over $62.5 million                        Branch Chief     CO               DAS A/LM
                                           Division Chief
                                           HCA

                                                                      70
                                                                 UNCLASSIFIED
                                                                       UNCLASSIFIED
                                                                                                                              Appendix D

                                                 A/LM/AQM Quality Assurance Plan (2/3/11)

               DOCUMENT                            REVIEWS          SIGNS        APPROVES                REFERENCE/           REMARKS
                                                                                                         AUTHORITY

PROCUREMENT INTEGRITY ACT –                      Branch Chief     CO            HCA                 FAR 3.104-7          Must notify OIG and
Possible Violations                              Division Chief                                     DOSAR 603.104-7      OPE
                                                 L/BA
PROTESTS:
                                                                                                                         All protests shall be
1   Agency protest decision                      Branch Chief                   Division Chief or   FAR 33.103           reported immediately to
                                                 L/BA             CO            RPSO Director       DOSAR 633.103        the HCA and L/BA
                                                 Branch Chief     CO            HCA                 FAR 33.104
2   GAO protest report                           Division Chief   L/BA                              DOSAR 633.104        A/OPE shall be notified
                                                 L/BA                                               4 CFR Part 21        regarding all Agency
3   Decision to proceed with contract award or   Branch Chief     HCA           HCA                 FAR 33.104(b)&(c)    protests as well as
    to continue contract performance despite     Division Chief                                     DOSAR 633.104        about the Agency
    pending protest                              L/BA                                                                    disposition

4   Notice to GAO that agency has not fully      Branch Chief     HCA           HCA                 FAR 33.104(g)
    implemented GAO recommendations              Division Chief                                     DOSAR 633.104
    within 60 days                               L/BA

QUALIFICATION REQUIREMENTS –                     Branch Chief     HCA           HCA                 FAR 9.202(a)(1)      May not be redelegated
Justifications to establish                      Division Chief                                     DOSAR 609.202

                                                                                                                         HCA can approve if
RATIFICATION OF UNAUTHORIZED                     Branch Chief     Tech Reqmts   OPE                 FAR 1.602-3          less than $1000
COMMITMENTS                                      Division Chief   CO                                DOSAR 601.602-3      A/LM/AQM/BOD
                                                 L/BA                                                                    coordinates submission
                                                 HCA                                                                     to A/OPE

                                                                                                                         Affirmative
RESPONSIBILITY DETERMINATION                                      CO                                FAR 9.103, 9.105-2   determination must be
                                                                                                    AQM Memo 11-02       made in writing for all
                                                                                                    FAR 15.3             AQM transactions.
                                                                                                    AQM Memo 10-8        Past performance
                                                                                                    OPE PIB 2010-14      information, including
                                                                                                                         ePLS, FAPIIS, and
                                                                                                                         PPIRS must be
                                                                                                                         checked and
                                                                                                                         documented.
                                                                            71
                                                                       UNCLASSIFIED
                                          UNCLASSIFIED


                                                                                       Appendix E

                         Operating Guidance for A/LM/AQM

    Memo
                                                           Title
   Number
13-01       Federal Funding Accountability and Transparency Act (FFATA) Procedures
12-08       CPARS User ID Access Request
            User Role Checklist
12-07       Synopsis of Proposed Contract Actions (Fedbid vs FedbizOpps)
12-05       SPOT LOA's in Afghanistan
            Kabul Management Policy
12-04       Contractor Recruitment of Third Country Nationals
            Procurement Information Bulletin No. 2012-10
            Procurement Information Bulletin No. 2011-09
12-03       Selected Necessary Steps during the Acquisition Cycle
12-02       Justification and Approvals for Other than Full and Open Competition
            J&A Transmittal DOC Rev. 01-20-2012
            J&A Rev 01-20-2012
12-01       Interagency Acquisition Agreements
11-09A      JCCS Memo
11-09       Acquisition Plan Template
11-08       Acquisition Plan
11-07       Data Quality Verification and Validation Process
11-06       Contracts Over 5 Years
11-05       A/LM/AQM Quality Assurance Plan
            A/LM/AQM Quality Assurance Plan (2/3/11)
            A/LM/AQM Quality Assurance Plan (2/3/11) (track changes version)
11-04       COR Delegation Appointment Letter
            COR Delegation Appointment Letter attachment A
11-03       AQM Congressional Notification of Award
            AQM Congressional Notification of Award attachment
11-02       Contract File Documentation
11-01       File Review Requests
10-11       FFATA Reporting Executive Compensation And First-Tier Subcontract Awards
10-10       Updated American Recovery and Reinvestment Act Reporting Clauses
10-09       Communication with Offerors during Competitive Processes
10-08       Request for Contractor Performance Assessment Report System (CPARS)
            CPARS Request Checklist
            User Roles in CPARS
10-07       Review of AQM Compliance with FAC-C Training Requirements

                                               72
                                          UNCLASSIFIED
                                           UNCLASSIFIED


    Memo
                                                          Title
   Number
10-06       eDistribution - AQMs Electronic Distribution Process
            Distribution of Procurement Actions
10-05       Request for BOD/QA Cost Advisory Services
            Prime Contractor Employment of Iraqi Citizens and Nationals Contracting Officer (CO)
10-03
            Responsibilities
10-01       Audit Coordination Services
09-06       AQM Intern Program
09-05       Contract Administration Data Template Items
09-04       Contractor Identification Card Issuance Procedures for AQM Sponsors
09-03       Justification and Approvals for Other than Full and Open Competition
            Attachment 1
09-02A      Implementing Guidance for A/LM/AQM Recovery Act Transactions
            AQM Recovery Act Award Data
09-02       First Consideration for FedBid to Procure Commercial Supply Items
09-01       Data Quality Validation and Verification (FPDS)
08-09       08-09 Interagency Acquisitions
            OFPP Interagency Acquisitions Guidance 7/08
            Department Notice on State First Policy 4/18/08
08-08A      GSA Orders with open markets items
08-07       New Hire Orientation Process
08-06       Dun & Bradstreet Reports
08-05       Publication of Name Brand Justifications
08-04       AQM FOIA Process
            Attachment: Process Map
08-03       Legal Review of United States Person Status - Construction Contracts
            Attachment: Certifications Pamphlet
08-02       Small Business Set Aside Documentation
            Tab A Form DS 1910
08-01       Documenting Transfer of Contracting Officer Cognizance
07-07       Contracting Officer Government Property Administration Responsibilities
            Tab A COR Appointment
            Tab B Property Administrative Appointment
07-06       Information Technology Equipment Purchase Specifications
07-05       07-05 Dealer/Reseller Offers and GSA Multiple Award Schedule (MAS) Contracts
07-04       Employee Notice of Contractor Employee Affiliation
07-03       Ratification Procedure for an Unauthorized Commitment
            Tab A Processing Map
            Tab B Checklist
07-02       AQM Memo 07-02 is cancelled and replaced with AQM memo 10-04

                                                73
                                           UNCLASSIFIED
                                            UNCLASSIFIED


    Memo
                                                          Title
   Number
06-03          When and How to Send Mail, Return Receipt Requested
06-02          Publication of Brand Name Justifications
06-01          COTS Hardware for CLAN
93-2          Standard Acquisition Instrument Identification Numbering System
Source: A/LM/AQM Intranet Web site, http://lm.a.state.gov/AQM/Memorandums/, downloaded Dec.16, 2012.




                                                 74
                                            UNCLASSIFIED
                                 UNCLASSIFIED


                                                                          Appendix F

         Selection of Reports That Indentify Procurement
              Deficiencies at the Department of State

Office of Inspector General, Office of Audits

   1. Evaluation of Invoices and Payments for the Embassy Baghdad Operations and
       Maintenance Contract (AUD-MERO-12-43, August 2012)
   2. Audit of Bureau of Oceans and International Environmental and Scientific Affairs
       Administration and Oversight of Funds Dedicated to Address Global Climate
       Change (AUD-CG-12-40, July 2012)
   3. Review of Costs Charged to Iraq Democracy-Building Grants Awarded to the
       International Republican Institute During FYs 2004-2010 (AUD-CG-12-35, June
       2012)
   4. Audit of Contracting Officers Exceeding Delegated Procurement Authority
       (AUD/CG-12-26, March 2012)
   5. Audit of Funding Provided by the American Recovery and Reinvestment Act for
       the Bureau of Consular Affairs Passport Facilities Project (AUD/CG-12-25,
       March 2012)
   6. Audit of Funding Provided by the American Recovery and Reinvestment Act for
       the Foreign Affairs Security Training Center (AUD/CG-12-13, December 2011)
   7. Improved Contract Documentation and Monitoring by the Regional Procurement
       Support Office Are Needed for Construction Projects Associated With the
       President’s Emergency Plan for AIDS Relief (PEPFAR) (AUD/IP-12-03,
       November 2011)
   8. DoD and DOS Need Better Procedures to Monitor and Expand DoD Funds for
       the Afghan National Police Training Program (AUD/CG-11-30, July 7, 2011)
   9. Limited-Scope Review of the Design and Construction of a Recreation Center at
       Embassy Dushanbe, Tajikistan (MERO-I-11-04, March 2011)
   10. Performance Evaluation of PAE Operations and Maintenance Support for the
       Bureau of International Narcotics and Law Enforcement Affairs’
       Counternarcotics Compounds in Afghanistan (MERO-I-11-02, February 2011)
   11. PAE Operations and Maintenance Support at Embassy Kabul, Afghanistan –
       Performance Evaluation (MERO-I-11-05, December 2010)
   12. Audit of Allegations Pertaining to Contract With DynCorp International for the
       Security Sector Transformation Project in South Sudan, Africa (AUD/SI-10-23,
       August 2010)
   13. The Bureau of International Narcotics and Law Enforcement Affairs Air Wing
       Program in Afghanistan and Pakistan (MERO-A-10-03, March 2010)
   14. Audit of the Design and Construction of the New Embassy Compound in
       Baghdad, Iraq (AUD/IQO-09-25, October 2009)



                                      75
                                 UNCLASSIFIED
                                  UNCLASSIFIED

   15. Memorandum Report on the Preliminary Review of the Second Worldwide
       Personal Protective Services (WPPS II) Contract Task Orders (MERO-A-09-12,
       August 25, 2009)
   16. Joint Audit of Blackwater Contract and Task Orders for Worldwide Personal
       Protective Services in Iraq (AUD/IQO-09-16, June 2009)
   17. Review of Diplomatic Security’s Management of Personal Protective Services in
       Iraq (MERO-IQO-09-02, January 2009)

Office of Inspector General, Office of Inspections

   1. Inspection of the Bureau of Counterterrorism (ISP-I-12-32A, June 2012)
   2. Inspection of the Bureau of Diplomatic Security, Office of Antiterrorism
      Assistance (ISP-I-12-31, June 2012)
   3. Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A, February 2012)
   4. Compliance Follow-Up Review The Bureau of Administration’s Office of the
      Procurement Executive, Office of Acquisitions Management, and Office of Small
      and Disadvantaged Business Utilization (ISP-C-10-23, February 2010)
   5. The Bureau of African Affairs (ISP-I-09-63, August 2009)

Government Accountability Office

   1. IRAQ AND AFGHANISTAN – State and DOD Should Ensure Interagency
      Acquisitions Are Effectively Managed and Comply with Fiscal Law (GAO-12-
      750, August 2012)
   2. CONTINGENCY CONTRACTING – Improvements Needed in Management of
      Contractors Supporting Contract and Grant Administration in Iraq and
      Afghanistan (GAO-10-357, April 2010)
   3. COMBATING TERRORISM – Planning and Documentation of U.S. Development
      Assistance in Pakistan’s Federally Administered Tribal Areas Need to Be
      Improved (GAO-10-289, April 2010)

Commission on Wartime Contracting in Iraq and Afghanistan

   1. Special Report on Iraq Transition Planning – Better planning for Defense-to-
      State transition in Iraq needed to avoid mistakes and waste (CWC Special Report
      3, July 12, 2010)




                                       76
                                  UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                                                Appendix G


    :t,:.
    $
    " ,..                                                         United
                                                                  Uni
                                                                  Unil      Slate~ D
                                                                      te'dd States
                                                                            Slates De partm
                                                                                      partment     Sti:ll
                                                                                            enl of Slale
                                                                                                   S      ~
                                                                                                     lal C'

                                                                  U'ashiltgtOll. n.C
                                                                  Washingtoll.
                                                                  Washi"gtml.         20.520
                                                                                 n. C 2
                                                                                 fJ.C   0.520

                                                                 May6
                                                                 May 6 ,. 2013

UNCI.ASSIFIED
UNCLASSIFIED
UNC LASSIFIED
MEMORANDUM

TO:                    AVD - Evelyn Klemstine
                 OIGI/ AUD          Klernstine ()            _A.
FROM:
FROM:            A1LM - Catherine I.
                 NLM                       Ebert'Gray~
                                  J. Ebcrt.Gray f),A
                                     Ebert -Grayv   \

SUBJECT:         Audit of Bureau of Administration Procurement Shared Services

        Thank you for the oppo
                           opportu  nity to add
                           opportunity
                                 rtunity        ress the audit rreport
                                            address              eport concerning the Bureau of
Administration's
Administration 's Procurement Shared Services. Mr. Robert Lower is the point of contact on this
respon se and he can be reached
response                re ac hed at (703) 875-5822.
                                            875·5822.

                                     Administration's.
     The following are the Bureau of Administration
                                     Administration'S
                                                    ' s,, Office of Acquisitions
                                                                    Acqui sitions ManagemcnI's
                                                                                  Management's
(AQM) comments on the subject audit report.

Recommendation
Recommendat     ion 1. DIG recommends that the Bureau of Administration.
                                                            Administration, in
     dination with th
coordination
coor               thee Bureau of Budget ~nd Planning,
                                         and
                                  Budgel :md Planning, create a separate
                                                                separa te point limitation
withi n the Working Capital Fund for the Procurement Shared Services service center.
within                                                                           cen ter.

           response : 11te
 AlLM's response:
 A1LM's                The Bureau of Administrat
                                         Admini
                                           dministrat
                                                 strat ion respectfull
                                                           respectfullyy disagrees with this
 recommendation. In lieu of   ofaa pointlimit8tio
                                   point limitationn., AQM's Working Capi Capital
                                                                               tal Fund (WeF)     current ly
                                                                                           (WCF) currently
 has its own unique allotment codecodc within 19X4519.0                      AlEXlWCF to track all
                                               19X4519.Q which allows A1EXlWCF
                                                                             NEXfWCf
 revenue., obligations,
 revenue,
 revenue   obligations., liquidation
           obligations   liquidations,
                         liquidati   s, and carry forward associated with
                                   ons,                                  wiith
                                                                            th AQM. The Bureau of
 Administration
 Admin istration (A) and the Bureau of Budget and Planning                                        forward,,
                                                          Pl anning (BP) jointly address carry forward.
                                                                                                  fOf\vard
aand
  nd came 10to a consensus on AQM's carry forward balance this year, and will      \-vill continue to wo
                                                                                                      work
                                                                                                         rk
 together using Global Financial Management System (OFMS)     (GFMS) budget data on an annual basis  basis..

In accordance with the Governme
                          Government  nt Accountab   ili ty Office audit
                                         Accountability              audit on Interagency Contracting
                                                                                                 Co
                                                                                                 Conntractin g
(GAO -II-  784);
       -11-784
       -II-784 ); Under a revolving funding structure,
                                                 structure.
                                                  tructure, any WCF that expends more         marc that it collects
in reimbursements can be absorbed by the remaining working capital fund accounts in order to
remain solvent. The A Bureau
                          Bureau's' s WCF includes 32 of the 36 Department cost centers.      centers, working in
             with
conjunction wi      [RM on three of those cost centers; with lNUA
                th IRM                                              fNUA on three cost centers for the
          \vCF ;~ and with the Bureau of the Comptro
Aviat ion WCF
          WCF;                                  Comptroller  ller and Global Financial Services ((CGFS)   CGFS)
on one cost ce nt er. [nserting
            center.
               nter.  lnserting
                      Inserting a point limitation
                                         limitation on one       cosTt cente
                                                           o ne COS    centerr, ea rly in its
                                                                                early          in cept ion, would
                                                                                          ito; inception,
   undulyy restrictive at a time w
be undul                         whenhen workloads and potential income are declining. declining.

Furthermore.
          re,, as you nnote
Furthermore
Furthermo                      yo ur draft report ,. the augmentation of funds is not prohibited by law:
                        ote in your




                                             UNCLASSIFIED




                                              77
                                         UNCLASSIFIED
                                        UNCLASSIFIED


                                             UNCLASSIFIED

            United States Co
                           Codede.. 22 U.S.C.
                           Code.       U.S.C . 2684, authorizes
                                                     au thorizes the Departm ent'ss WCF
                                                                     Department's
                                                                     Department'    WCF., and does
                                                                                              docs not
            specifically prohibit the Department
                                        Depanmen t from using amounts collected for one
                                        Departmen                                       onc WCF
            service
            serv
            se   ice or cost center
               rvice         cente r to cover expenses for another service or cost
                                                                              ccst center.
                                                                                    ce nter.

We believe that th
                this
                   is recommendation
                      recommendati on should
                                      shou ld be held pending anticipated adjustments to
                                            Afghanistan,
workload, with our downsizing in Iraq and Afgha   ni stan, and a fcc
                                                                 fec sstru cture review in FYI4.
                                                                       tructure            FY 14.
                                                                                           FY14.

Recommendation 2.    2 . OIG recommends that lhal the Bureau of Administration, Oflice
                                                                                  Olliee
                                                                                  Office of
Logistics Management,     Oflicc
                          Of-tice of Acqu
           Management. Office              isitions Management,
                                     Acquisitions                  develop
                                                     Management , deve  lop and implement a
       or how it will use ils
plan ffor                 its portion of the available
                                             avai lable Working Capital FuFunnd carryover to
                                                                          Fund
either implement its Busines                 o r to improve the efficiency and effect
                       Businesss Plan goals or                                  effectiveness
                                                                                      iveness of
contract monitoring.

AlL
A1LM's                               Admi nistratio
     M's response: The Bureau of Administrat     ionn agrees with this recommendation and will
                                     Administration
develop a plan for how it will use the available WCF carryover to support acquisition-related
activities. AQM further notes that carryover funding has always been a part of the .A's
                                                                                    '-\:s
                                                                                    A  's business
     to fund acquisition operations.
plan 10

Recommendation 3.      DIG recommends that the Bureau of Administration
                   3 . OIG                                     Administrat ion develop and
document a methodology forfo r calculating  thc procurement-service fee. including a process
                               ca lculating the                                        proccss to
consider future program costs
                         costs and the timeframe
                                         timefrrune                                  fcc.
                                         time frame for periodically reassessing the fec.
                                                                                     fee.

   L M's response
A/lLM's  response:
         respo nse:: The Bureau or
                                of" Adminis
                                of  Administtration con curs with this recommendation.
                                                    concurs             ecommendati on.

Recommendation -I4. OIG   OIG recommends that  tha t the
                                                     tbe Bur eau oof"
                                                         Bureau    f"f Administration reassess the
amount of        f"ee to ensure that it is suflicicnt
        o fr the fee                       sufficient and sup
                                                           su pporta
                                                           supportable.ble. The results orlhe
                                                               portable.                of" the
                                                                                        of
reassessment should be made available to customers.
                                                 custome rs.

A1LM's
AlLM's response:                    Adminismnion concurs that WCF fees
          r esponse: The Bureau of Administration                       f"ees should be assessed in
light of current circumstances to ensure they are sufficient and supportable.

Recommendation
Recommendati    on 55.. OIG recommend    tba t the Bureau of Administration
                            recommendss that                 Admini stration.. Oflicc
                                                             Administration.   Ollice of
Logistics Management. Office of Acquisitions Management. develop and implement a
formal            obtai n feedback from customers that would include providing
fomlal process to obtain
          information on the results of the elTort
customers infommtion                         efTort including specific plans
                                             effort                    plW1S on how
                                                                                ho"
concerns would be addressed.

A1LM's    response : The Bureau of Administration concurs 'with
AlL M's response:                                               with this recommendation.
                                                                wlth      rec ommendation. We have
already conducted numerous outrcaeh
                                outreach events with sev
                                                      several
                                                          eral Department ExecUlive
                                                                            Executive D irectors. So
                        visitcd with AF. WIIA.
far this year. we have visited            WHA, IRM,
                                                 IRM. MIPRJ
                                                        MlPRl and NEA.
                                                        MIPRI       NEA, and we have achieved a
bette r understanding of bureau and post requirements
better                                     requirements.. Additionally. A/LM
                                                                          AILM has an 'open door
policy'
policy" with
         wi th Managemen
               Management    Ofliccrs and other custome rs to visit our office
               Managemell1t Officers
                             Oflicers                                   olTicc and meet with all the
                                                                        ofTice                    thl.!
leaders in AlLM
            A/LM who manage tthe
            NLM                   hc Department's entire
                                  he Dcpartmcnt's  cntire
                                                   en tire supply chain. WeWe will revisit previous
                                                                                           previolls
                    customer
                    custo merr survey boards and annual customcr
initiatives such as custome                               customer survcys
                                                                     surveys as ways to obtain




                                             U:,\CLASS IH ED
                                             LJ:\CLASSIHED
                                             lJ.\CLASSIFIED




                                             78
                                        UNCLASSIFIED
                                       UNCLASSIFIED



                                          UNCLASSIFIED

customer feedback and assess the needs of AQM's     customers, particularly during this eera
                                            AQM ' s customers.                            ra of
red
reduuced
     ced interaction at conferences
reduced                 co nferences and workshops.

Il ecomm cndatio n 6. OIG recommends that the Hurcau
I{ccommcndation
Recommendation                                     l:!urc3u of Administration,
                                                               Administration. Orrice
                                                                                Office of
Logistics Management. omce                        Management, develop and implement a
                          Office of Acquisitions Management,
plan of action to inform custo
      ofaelion            customers  of the services that it provides,
                               mers o[the                    provides. and the benefits of
using these services.
             services, inCluding
                       including enhancing its Intranet Web site.

A1LM ' s response:
AlLM1s
A1LM's                            Adminis tration agrees with this recommendation
         respo nse: The Bureau of Administration                   recommendation..

IR
 lecom mcn d atio n 7. 010
 H.ecommcm.lation
   ecommendation       OIG
                       0 10 recommends that the Bureau of Administration,
                                                          Administration. Office
                                                                          Ollicc of
          Managemenl. Office of Acquisitions Management (AILM
Logistics Management,                                             / AQM)
                                                                    AQM)., develop a
                                                           (AiLMlAQM).
formal methodology to identify customers who want and whom Af/lLM
[onnal
[annal                                                           LMIf/ J\QM
                                                                       AQM detemlines
                                                                            determines
would benefit from on-site
                    on -siitte procurement staff.
                    on-s

AfLM's response:
AlLM's
A/LM!s response
       res ponse:: The
                   Thc Bureau of Administration agrees with this recommendation
                                                                 recommendation..

Reco   mmend ation 8. OIG
Recommendation          DIG recommends that the Bureau of Administration , Office of
LOj:!istics Management
Logistics   Managemcnt., Office of Acquisitio
            Management.               Acquisitions Managemcnt (A1LM
                                                ns Management           /AQM),
                                                                  (AILMfAQM ), take action to
                                                                  (AILMlAQM),
provide on-site procurement staff
                                statT to
                                starT                        thai AlLM
                                      10 bureaus and offices that NLMlAQM
                                                                       /AQM determines
                                                                  AlLMlAQM
   vould benefit
...would bcnefit from this practice.

AfLM's   res ponse: The Bureau of Administration agrees with this recommendation
AlLM's response:                                                       recommendation.. AQM
currently provides on-site procurement staff
                                         stafTto
                                         staO'to                                  thiss type of
                                               to bureaus and offices in need of thi
support, have suf1icicnl volume
              sufficient vo lume 10
                                 to justify full-time staffing,
                                                      staffing. and have the office space to10
acconmlOdatc additional staff. We are aware of customers who are in need of embedded
accommodate
contracting professionals and we discllss
                                  discuss the complexity of contracting actions with the  the AQM
Division Directors weekly.

Recommendation 9. OIG   DIG recommends that the Bureau of AdmAdministration
                                                             Admjnistration
                                                                   ini stratio n,, Office of
Logi~.i1ics Management.
Logistics   Management , Office
                          Oflice of Acquisitions Management, develop a 3-year staffing
                         numberr of staff needed and the required mix
plan that identifies the numbe                                    m ix of staff
                                                                            stafT
                                                                            staff,, based on
expectations
expectat       or contracting needs.
          ions of             needs, including contract oversight
                                                        ovcrsight responsibilities.

AfLM's response:
AlLM's    rcspo nse: The Rureau
          rcspons(':         Bureau of                  agre~s with this recommendation. AQM
                                    or Administration agrees
currently
currcnlly
currcntly plans for staffing
                     staffi ng needs and identifies this in the Department's
                                                                Department·s Acquisition
                                                                              Acqu isition Human
Capitall Plan. AQM will supplement the Dcpartment's
Capita                                      Department's Acquisition Human
                                                                         Hum an Capital Plan with a
              smiling
more robust staffi ng plan that takes into account atlrition                   new Depanment
                                                     attrition and support for ncw Department
          requircments.
program requirements.

H.ccommendation
       mcndation 10. OIG
H.ccommcndation
H.ccom                  DIG recommends that the Bureau of Administration,
                                                            Administration. Office of
                                                             (NLM/AQM).
                                                             (AILM/AQM), revise
Logistics Management, Office of Acquisitions Management (NLM/AQM),            rev ise the
                                                                              rcvise
performance standards of its employees to
                                        \0 include additional standards related to
customer
cus       service. NLM
    tomer servicc.
customcr           A/LMI AQM should consult with customers on their
                   AlLMI                                          thcir needs
                                                                        nceds and develop
these additional standards accordingly.




                                          UNCLASSIFIED
                                          UNCLASS IFIED




                                            79
                                       UNCLASSIFIED
                                      UNCLASSIFIED



                                          UNCLASSIfiED
                                          UNCLASSIFIED


A/ LM 1 s response
AlLM's
A/LM's    response:: The Bureau of Admin.istration
                                   Administration agrees with this recommendation.

Recommendation 11.  II. OIa
                        DIG recommends that the Bureau of Administralion.
                        OIG                               Administration, Office of
Logistics Management
          Management., Office of Acquisitions Management, develop a mandator
                                                                    mandatoryy
customer service training curriculum
                          curricululll for its employees.

NLM's response. The Bureau of
A/LM's                           or
                               oj' Administration agrees with this recommendation. AQM will
use the Department's Foreign Service Institute to provide customer service            ror our
                                                                    serv ice training for
employees.

Recommendation 12. OIG
n.ccoOlmcnd<ltion    0 1G recommends
                          re
                          recomm   ends that the Bureau of Administration,
                             commends                      Administration. Office of
Logistics Management, develop
                      devcJop and implement a plan to ensure that customers arc aware
of the Customer Advocate position.

AlLM's
AILM's response. The
                 T he Bureau of Administration
                                Administrat             \...ith thi
                                      stratiio n agrees with    thiss recommendation.
                                                                      recommendation .

Rccommcnd~llion 13. OIG
Recommendation            DIG recommends that the Bureau of Administration
                                                                 Administration., Office of
Logistics Management, Ollice
                           Office of Acquisitions Management,
                                                  Management , implemcnt
                                                                  implement a process 10to
track attrition rates and regularly detennine
                                     detcnnine employee satisfaction
                                                        sa    sfaction , which would include
                                                        satitisfaction.
tracking concerns identified
                     identiiied by departing employees.

A/LM's response: AQM will work with HRiSS
AILM's
AfLM's                                     HRISS to track office attrition
                                                                 urtrition rates in addition ttoo
instituting an exit interview process which would identify concerns or issues raised by departing
em ployees.
employees.

Recommendation                                          Administration., Office of
Recommcnd.ttion 14. OIG recommends that the Bureau of Administration
          Management , Office of Acquisitions Management.
Logistics Management.                         Management, develop a succession plan.

    LM's response: The Bureau of Administration agrees with this
A //LM's
AlLM's                                                       thi s recommendation
                                                                   re commendation and
                                                                                   <lnd notes
that "QM's
     AQM's succession plan is contained in the Department's Acquisition Human Capital Plan.

Recommendation 15 IS
                  IS.. OIG recommends that the Bureau of Administration,
                                                           Administration. Office of
Logistiics Management.
Logist     Management, Office
                        OlTice of Acquisitions Management.
                                               Management, develop a plan to improve
its communication of its intern program to employees.
                                           employees, such as including infonnation in
its Welcome Package.

A/LM's
A /lLM's respo nse: The Bureau of Administration agrees vlith
    LM's response:                                      with this recommendation
                                                                  recommcndation and will
include this  infonnation in the AQM emp
        thi s infonnution            employee
                                         lo
                                         loyee
                                            yee Welcome Package.

Recommendation
Recommcnd:ltion 16. OIG     recommends
                        DIG re commendss that the Bureau of Administration, Office of
                            recommend
Logist ics Management.
           ManagcmcnL Office of o f Acquisitions Management, develop guidelines on training
                        professionals, including annual goals for providing training to
provided to contracting professionals.                                               [0

cmployees,. such as the number of cmployees
employees.
cmployees                           employees receiving courses each year.




                                         UNCLASSIFIED




                                           80
                                      UNCLASSIFIED
                                     UNCLASSIFIED



                                         UNCLASSIFIED


AILM's
AfLM's response: The Bureau of Administration agrees with this recommendation.
                                                                   recommendation . AQM will
provide guidelines to ensure that contracting professionals are aware of the types of training that
                                                                      oflhe
are available to them.

  ecommendation
H.ecommcndation
Reco                17. OIG recommends that the Bureau of Administration
     mm endation 17.010                                      Administration,, Office of
Logistics Management,
          Management , Office of Acquisitions Management,
                                                Management. identify additional intemal
                                                                                   intcmaJ
reviews that it would perfoml
                      perfonn to assess procurement  activity, internal
                                        procu rement activity. intemal processes,
                                                                        processes, and
perfonnance and develop a plan to implement the reviews that it considers beneficial.
performance
perionnance

A/ LM's response: The Bureau of Administration agrees with this recommendation,
A1LM's                                                          recommendation..
                                                                recommendation

Recommendation
H.ecorn mcndat ion 18. OIG recommends that the Bureau of Administration,
  .ecornmendation                                          Administration. Office of
Logistics Management, Ortice
                         Office of Acquisitions Management, identify significant
                                                                     sibrnificant
procurement processes
              processes to map and develop standard operating procedures that curre
                                                                               currently
                                                                                    ntl y
arc not included in available procedures.
are

A1LM's res
AlLM's    response:
              ponse:: The Bureau of Administration agrees with this recommend
          response                                                  recommendation
                                                                                ation.. AQM has
a robust Quality Assurance Plan that maps out the federal procurement process that is required
                                                                                        requircd
by contract type. AQM believes that the QA plan allows us to be flexible
                                                                  ilexible and nimble when
responding
re spondi ng to urgent rcquests
                             sts based on emergency or contingency requirements.
                       requests
                       reque                                       requirements .

Recommendation
H
R ecommendation 19. OIG recommends thallhe
 .ccommendation                           that the Bureau of Administration,
                                                             Administration , Office of
Logistics
Logist
Logi   ics Management,
     stics Management , Office of Acquisitions Management (AlLMlAQM),
                                                             (AILMlAQM), develop a
process to formally
           fonnally measure
                    measure and report on its accomplishme
                                               accomplishment                   Plan goals.
                                                             nt of the Business Phm
NLMJAQM should refine or updatc
NLMiAQM                       update the goals as needed.

A1LM's response:
A/LM's
AlLM's  res ponse: The Bureau agrees with this recommendation. AQM will repon
                                                                         report
accomplishments to the AlLM
                       NLM DAS
                            DA and through her to the Assistant Secretary.




                                         UNCLASS IFIED
                                         UNCLASSIFIED




                                          81
                                     UNCLASSIFIED
                                         UNCLASSIFIED



                                                                                                        Appendix H


                                                                         Slales Depu-tmem
                                                                  United Stales
                                                                         States Depatlllem
                                                                                DcpLnment of State
 .. ,   -.j<
          ~



.'                                                                WashillglOlI. D.
                                                                  WashillgTOII.
                                                                  Washillgton      C. 2 0()()52 0
                                                                                D..C.


                                                                        Aprill 24, 20 J133
                                                                        Apri

         NCLASSIFIED
        UNCLASS I FIED

        MEMORANDUM

        TO::
        TO:
        TO             OIG
                       O IG - Harol
                              Haroldd W.
                                      W, Geisel                           /

        FROM
           OM::
        FROM:
        FR              BP - Barbara A,
                        BP-          A.      Retzl-;ff   /~" .4!,
                                             Retzl:;rt~d~~
                                             Retzl-;rt       ,,;1,
                                                             ,,;j, "

        SUB JECT
            J EC
              ECTT : Draft
                     D raft Repo rt on Audir
                            Report
                            Repon      Audit of Department
                                                Deparrmen I of Slale Application
                                                               State
                                                            oIState  Applicaa tion of
                                                                     Applic        oIthe
                                                                                      the
                                                                                   oIrhe
                     Procurement Fee to Accomplish Key Procurement Services Goals    Coals

           reesspon
        In res  ponse         Office of Inspe
                    se to the Ortice          ctor General's leller, of the subject dra
                                         nspector                                   drafft report
                    Aprill 20 13, the Bureau ooff Budget and Planning
        dated 10 Apri                                        Planning (BP)
                                                                        (B P) have reviewed
        and of
            offfer the following response to Recommendation I :

        Recom
        Recommendation
         ecommendation  I: OIG reco
              mendation 1:          mmen
                               recommendsds tha
                                    mmends  thatt the             Adddministration,
                                                  th e Bureau o f A   ministration, in
        coordinatii on wi
        coordinat
        coordination   with
                       witth the Bureau of Budget
                                           Bu dget and P
                                                       Plann
                                                         lanning,
                                                         lanniing, create a separate po
                                                                                     point
                                                                                        int
        limitation
        lim itat
            it   ion wi th in th e Working Capita
               ation                       Capitall Fund
                                                     un d for the Procuremen
                                                                  Procurementt Sha
                                                                               Sharred Services
        service cente
                center.
                      r.

        Response:
        Re sponse: Th  hee Bureau of Budge
                                       Budgett and Planning, with concurren
                                                                  concurrence
                                                                            ce of the Bureau
        of Administ
           Adm inist rat
           Administration
                      atiion
                          on,, disagrees with this recommendation.
                                                   recommendation .

        AQM's WCF currently
                         currcnlly has its own unique allotment coddee w             ithin 19X4S19
                                                                                  within     9X4519..0
                  llows A/EX/wCF to track all revenue
        w h ich aallows                             revenue,, ob oblililigatio
                                                                         gations,
                                                                               ns, liquidat io ns, and
                                                                                             ions,
        carry   forward
        ca rry fo rwardd associated
                forwar   assoc              AQM, A and BP came to a conse
                         associiated w ith AQM.                                           nsus on AQ
                                                                                  consensus            M' s
                                                                                                   AQM's
        carry forward balance
                         ba lance this
                                  this year, anndd wiillll continue to work together    th er using GFMS
        Bud
        Budggetet Daata
                     ta on an a nnua
                               ann ua l basis.
                                nnual

        In accordance wilhith the la test GAO Audit:
                                   latest
                                    alest     Audit : Un der a revolvi
                                                      Under    revolving
                                                                       ng ffun
                                                                            und
                                                                            un d ing structure,
                                                                                     st ructure,
        any Worki  ng Capi
             Working         tal Fund (WCF) that expends more that
                       Capital                                    thal it collects in
        reeimb ursements can be absorbed by
           imbursements                     by the remaining working capital fund accounts
                    remain
        in order to re       solvent.
                       main so
                       m     sollvent.
                                 ven t.




                                               U"ICLASSIFIED




                                              82
                                         UNCLASSIFIED
                             UNCLASSIFIED



                                 UNCLASSIFIED
                                 UNCLASSIFlED


The A Bureau Working Capital Fund consists of 32 of the 36 Department's cost
                                                        costt cente rs, INL/A on 3
centers,, working in conjunction with IRM on 3 of those cos
centers
cost centers for the Aviat ion Working Capital Fund, and CGFS on I cost center.

Further, as you note in your draft rreport,                     rund~) is not
                                     cport, the augmentation of funds
prohihited
prohi hi ted by law:
                law:

      •   United States Code, 22 U.s.c.
                                 USc. 2684, authorizes the Department's
                    does not specifically prohibit the Department from using
          WCF, and docs
          amounts collected for one WCF service or cost center to cover
          expenses for another service or cost cente
                                               center.
                                                     r.

We believe
   beEevc tha
           thatt th is recommendation may more d ir
                                                 irectl
                                                   ectl y address a statement that
funds collected by AQM will only bcbe uscd
                                      used for AQM operations. We do,
however, note                   or intent and will continue to wor
          notc your explanation of                             workk together with
A Bureau in the responsibility of managing the WCF AQM accounts.




                                 UNCLASS
                                 UNCL ASS IFIED
                                       2




                                  83
                             UNCLASSIFIED
                                UNCLASSIFIED



Major Contributors to This Report

Gayle Voshell, Director
Financial Management Division
Office of Audits

Mary P. Siatis, Audit Manager
Financial Management Division
Office of Audits

Karen Crue, Auditor
Financial Management Division
Office of Audits

Carol E. Hare, Auditor
Financial Management Division
Office of Audits

Kathleen Sedney, Auditor
Financial Management Division
Office of Audits




                                     84
                                UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
